                      079




         COSTS AND SAVINGS FOR 1993 DEFENSE BASE
               REALIGNMENTS AND CLOSURES



Report No. 98-130                          May 6, 1998




              Office of the Inspector General
                  Department of Defense
Additional Information    and Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 6048937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD Home Page at: WWW.DODIG.OSD.MIL.

 Suggestions for Audits

 To suggest ideas for or to requesi future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support Directorate
 at (703) 6048908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
 can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
 or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

BRAC                  Base Realignment and Closure
DISA                  Defense Information Systems Agency
DPC                   Data Processing Center
DFAS                  Defense Finance and Accounting Service
FISC                  Fleet and Industrial Supply Center
GAO                   General Accounting Office
MILCON                Military Construction
NAS                   Naval Air Station
O&M                   Operations and Maintenance
                              INSPECTOR     GENERAL
                             DEPARTMENT   OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202




                                                                             May 6,1998

MEMORANDUM         FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION
                         AND TECHNOLOGY
                       UNDER SECRETARY OF DEFENSE (COMPTROLLER)

SUBJECT:    Audit Report on Costs and Savings for 1993 Defense Base Realignments     and
            Closures (Report No..98-130)


        We are providing this report for information and use. We conducted this audit to
compare Defense base realignment and closure costs and savings in the 1993 Defense
base realignment and closure budget with actual experience in response to a request from
the Under Secretary of Defense for Acquisition and Technology. We considered
management comments on a draft of this report in preparing the final report.

        Comments on a draft of this report conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments
are required.

        We appreciate the courtesies extended to the audit staff. Questions on the
audit should be directed to Mr. Wayne K. Million, Audit Program Director, at
(703) 604-93 12 (DSN 664-93 12) or Mr. Nicholas E. Como, Audit Project Manager,
at (703) 604-9215 (DSN 664-9215). See Appendix M for the report distribution.
The audit team members are listed inside the back cover.




                                          Robert J. Lieberman
                                      Assistant Inspector General
                                              for Auditing
                          Office of the Inspector General, DOD
Report No. 98-130                                                              May 6,1998
   Project No. 7CG-5033

                     Costs and Savings for 1993Defense Base
                            Realignments and Closures

                                 Executive Summary
                                   l




Introduction. This audit was requested by the Under Secretary of Defense for
Acquisition and Technology. The Department of Defense is projecting that, during
the Defense base realignment and closure (BRAC) implementation period ending in
2001, the four BR4C rounds will cumulatively incur one-time implementation costs
of $22.9 billion, while achieving total savings of $36.5 billion and anticipated land sales
revenue of $214 million. The Under Secretary requested assistance in obtaining a better
understanding of actual experience to date, and in determining how estimating and
budgeting processes could be improved.

Audit Objectives. The overall audit objective was to compare the estimated BRAC costs
and savings reported in the “DOD Base Realignment and Closure, Executive Summary
and Budget Justification, FY 1998/l 999 Biennial Budget Estimates,” February 1997, with
actual experience. Specifically, we used the 1993 round of Defense base realignments
and closures as an auditable case study to evaluate the 6-year estimated implementation
costs and savings; the methodology for tracking costs and savings over the BRAC
implementation period; and whether management controls were adequate for reliably       .
determining BR4C implementation costs and savings. The findings in this report relate
only to the 1993 BIL4C round. Each BRAC round has been unique in terms of the mix
of the involved installations.

Audit Results. The DOD initial budget estimates of the positive fiscal impact of BR4C
1993 were understated by as much as $3.2 billion.

The DOD has a reasonably effective process for updating cost estimates for BRAC. As of
the FY 1998 BRAC budget, the DOD had reduced the original BlL4C 1993 budgeted cost
estimates of $8.3 billion by $791 .l million to $7.5 billion. However, the FY 1998 BRAC       .
budget estimates could be reduced up to an additional $724.1 million, for a total potential
cost reduction of up to $1.5 billion from the original estimate. At the time of our review,
obligations for BRAC 1993 costs were about $294 million less than the FY 1998 BR4C
budget estimates. This variation is significant but not excessive. Additionally, recorded
disbursements for BRAC 1993 costs were up to $430.1 million less than recorded
obligations. Accounting procedures are in place to eliminate invalid obligations;
however, that process could be improved to enable a more current and accurate estimate
of the actual costs. The more recent unliquidated obligations are likely valid, while most
of the older unliquidated obligations are likely invalid. An aggressive review of
outstanding obligations should result in additional reductions in the total estimated costs
for BRAC 1993.

In the FY 1998/1999 BRAC budget, the DOD had increased the original BRAC 1993
implementation savings estimates of $7.4 billion to $7.5 billion. However, budget
estimates for savings were still understated by as much as $1.7 billion because various
types of savings data were unnecessarily excluded when the estimates were formulated,
or were not subsequently updated. This variation is excessive, and procedures for
estimating and tracking savings need improvement. However, the fact that savings were
greater than previously estimated is good news for the Department.

Summary of Recommendations.          We recommend that the Under Secretary of Defense
(Comptroller) re-emphasize established accounting and budgeting procedures to the
Services and Defense agencies to ensure that BRAC costs are accurately and promptly
adjusted in the fiscal budget estimates. Specifically, the Services and Defense agencies
should coordinate with the Defense Finante and Accounting Service to promptly
reconcile and deobligate excess obligations when final costs are known. Further, we
recommend that the Under Secretary of Defense (Comptroller) direct the Services and
Defense agencies to retain documentation supporting cost avoidances and canceled
military construction projects; reconcile the costs of any workload increases and the
number and cost of military and civilian personnel authorization eliminations at gaining
activities; and report to the Under Secretary of Defense (Comptroller) the revised actual
savings data. Finally, we recommend that the Under Secretary of Defense (Comptroller)
revise the DOD Regulation 7000.14-R, “ Department of Defense Financial Management
Regulation,” July 1996, and update the fiscal budget estimates for savings resulting from
BRAC decisions by replacing prior year estimated savings with actual savings as reported
by the Services and Defense agencies.

Management      Comments. The Deputy Under Secretary (Industrial Affairs and
Installations) concurred with the recommendations and will work with the Military
Departments and the Office of the Under Secretary of Defense (Comptroller) to improve
performance in reporting base realignment and closure costs and savings.

The Office of the Under Secretary of Defense (Comptroller) concurred with the
recommendations and will issue specific guidance emphasizing the requirement to
reconcile reported obligations and disbursements with source documents and promptly
deobligate excess obligations when final costs are known. The Office of the Comptroller
will also issue guidance to the Services and Defense agencies requiring them to retain, for
a minimum of 5 years, all pertinent historical records documenting adjustments to
operating budgets resulting from base realignments and closures; reconcile the number
and cost of military and civilian personnel eliminations; document both full and partial
cancellations of programmed military construction projects; and report revised actual
savings data. See Part I for a discussion of management comments and Part III for the
complete text of management comments.
Table of Contents

Executive Summary


Part I - Audit Results
      Audit Background         l

      Audit Objectives
      Finding A. Costs for 1993 Defense Base Realignments and Closures
      Finding B. Savings for 1993 Defense Base Realignments and Closures

Part II - Additional Information
      Appendix A. Audit Process
        Scope
        Methodology
        Management Control Program
      Append& B. Summary of hior Coverage
      Appendix C. Comparison of Naval Reported Estimated Costs in the FY
                   1998/l 999 Biennial Budget to Incurred Obligations and
                   Revised Outyear Estimates
      Appendix D. Naval &liquidated Obligations
      Appendix E. Civilian and Military Personnel Authorization Eliminations
      Appendix F. Naval Savings, Other Than MILCON
      Appendix G. Additional Naval MILCON Savings
      Appendix H. Naval Industrially-Funded Installation Closures
      Appendix I. Naval Appropriation-Funded Installation Closures
      Appendix J. DISA Labor Savings
      Appendix K. DISA Non-Labor Savings
      Appendix L. Relationship Between Defense Management Review
                   Decision 9 18 and the 1993 Commission Decision
      Appendix M. Report Distribution

Part III - Management     Comments
      Under Secretary of Defense for Acquisition and Technology Comments
      Under Secretary of Defense (Comptroller) Comments
Part I - Audit Results
Audit Background
     This audit was requested by the Under Secretary of Defense for Acquisition
     and Technology. The Under Secretary stated that the Defense base realignment
     and closure (BRAC) program was an important source of future savings for DOD.
     The Department developed estimates of costs and savings resulting from BRAC
     1993 but had not tracked the actual costs and savings over the BRAC period. The
     Under Secretary requested an audit of past budgets to determine actual BILK
     costs and savings, as well as providing recommendations regarding the
     Department’s processes for estimating and budgeting these figures. The “DOD
     Base Realignment and Closure, Executive Summary and Budget Justification,
     FY 1998/l 999 Biennial Budget Estimates,” (Biennial Budget), February 1997,
     reported $7.5 billion in one-time implementation costs and $7.5 billion in
     estimated savings resulting from BRAC 1993 during its 6-year implementation
     period.
     In June 1997, we briefed the Deputy Under Secretary of Defense (Industrial
     Affairs and Installations) on the results of our initial audit survey. Those results
     corroborated the DOD position that BRAC was cost-effective. As a result of this
     briefing, we continued our audit efforts. Additionally, the Secretary of Defense
     included our initial survey results with a request to Congress for additional BRAC
     authority, which Congress denied.
     In November 1997, the Secretary of Defense announced his intention to reopen
     the issue and seek congressional authorization for two additional BRAC rounds in
     2001 and 2005. Also, the National Defense Authorization Act for Fiscal Year
     1998 included a requirement in Section 2824 for DOD to prepare and submit to
     the congressional defense committees a report on the costs and savings resulting
     from all rounds of BRAC. This audit was primarily completed before the Section
     2824 requirements were enacted. However, the results of this audit were used by
     DOD in the formulation of its overall response to Congress, “The Report of the
     Department of Defense on Base Realignment and Closure,” April 1998, to meet
     the Section 2824 requirements.


Audit Objectives
     The overall audit objective was to compare the estimated BRAC costs and savings
     reported in previous DOD budgets with actual experience. Specifically, we used
     the 1993 round of BRAC as an auditable case study to evaluate the 6-year
     estimated implementation costs and savings; the methodology for tracking costs
     and savings over the BRAC implementation period; and whether management
     controls were adequate for developing BRAC costs and savings. We chose the
      1993 BRAC round because the data supporting costs and savings was relatively
     recent and the majority of the realignment and closure actions was complete. The
     findings in this report, addressing the accuracy of costs and savings estimates,
     relate only to the 1993 BRAC round. Each BRAC round has been unique in
     terms of the mix of involved installations and the extent to which actions are
     completed varies greatly. See Appendix A for a discussion of the audit scope and
     methodology, and Appendix B for a summary of prior coverage related to the
     audit objectives.

                                          2
           Finding A. Costs for 1993 Defense Base
           Realignments and Closures
           BRAC 1993 implementation costs have proven to be lower than initially
           estimated. The Under Secretary of Defense (Comptroller), in coordination
           with the Military Departments and Defense agencies, has reduced the
           initially estimated one-time implementation costs for BRAC 1993 by
           $791.1 million. However, the FY 1998/1999 Biennial Budget estimates
           could be reduced up to an additional $724.1 million, for a total potential
           cost reduction of up to $1.5 billion from the initial estimate of $8.3 billion.
           At the time of our review, obligations for BRAC 1993 costs for the
           Military Departments and the Defense Information Systems Agency
           (DISA) were $294 million less than the budget estimates. In addition,
           recorded disbursements for BRAC 1993 costs for the Navy, the Air Force,
           and DISA were about $430.1 million less than recorded obligations.



Accounting Policy Guidance for BRAC Costs

    BRAC Costs and DOD Accounting Policy for Tracking Obligations. The
    DOD Regulation 7000.14-R, “Financial Management Regulation,” July 1996,
    identifies BRAC costs as “one-time implementation costs” to include
    transportation of people and material goods, military construction (MILCON)
    at the gaining base, and environmental costs. Those cost estimates are directly
    identified with the closed or realigned military installations. In addition, the
    regulation requires the liquidation of obligations within 5 years.

    DOD Accounting Policy for BRAC. The Under Secretary of Defense
    (Comptroller) memorandum, “Financial Management Policy and Procedures
    for Base Closure and Realignment,” December 21, 1993, reinforces DOD
    accounting policy and procedures for handling BRAC costs. This memorandum
    outlines the appropriation level accounting procedures to be followed by the
    Military Departments, and lists reports that can be prepared by the Defense
    Finance and Accounting Service (DFAS). DFAS status reports summarizing
    obligations and disbursements can assist the Military Departments and Defense
    agencies in prompt adjustment of obligations resulting from BRAC costs.

    The Biennial Budget. The Biennial Budget is the only official document that
    records the financial effect of BRAC decisions. Specifically, the Biennial
    Budgets report programmed costs and estimated reductions in operating budgets
    (cost avoidances or savings). The DOD Financial Management Regulation
    addresses the reconciliation of increases and decreases in the Biennial Budget by
    the Military Departments and Defense agencies for one-time implementation
    costs. The regulation states:

                  . for each program increase or decrease, quantitative and qualitative
               information relative to the proposed change should be provided . . . and
               should address specific adjustments in the program.



                                             3
Finding A. Costs for 1993 Defense Base Realignments         and Closures



      BRAC 1993 Costs. In the FY 1995 BR4C Budget Estimate, the one-time
      implementation costs were estimated to be $8.3 billion. The fiscal year BRAC
      budget estimates are revised annually, based on actual expenditures and updated
      estimates of the remaining costs to implement BRAC 1993. The FY 1998/l 999
      Biennial Budget for BRAC 1993 estimated one-time implementation costs to be
      $7.5 billion, a reduction of $791 .l million. To obtain an extensive audit case
      study, we reviewed $5.4 billion, or 73 percent, of the FY 1998/1999 Biennial
      Budget estimated one-time implementation costs for BRAC 1993.



Army One-Time Implementation                      Costs

      Biennial Budget Reported Costs. The seven Army installations included in the
      FY 1998/l 999 Biennial Budget reported one-time implementation costs of
      $288.8 million. We verified 100 percent of the Army one-time implementation
      costs to DFAS records and source documentation.     Actual Army obligations for
      one-time implementation costs totaled $242.8 million as of October 1997.
      Table 1 compares estimated one-time implementation costs reported in the FY
      1998/l 999 Biennial Budget with incurred Army obligations and revised outyear
      estimates. Costs for program management, which also includes architect-engineer
      services and environmental restoration, were centrally accounted for by the Army.

            Table 1. Comparison of Army Reported FY 1998/1999 Biennial Budget
            Estimated Costs to Incurred Obligations and Revised Outyear Estimates
                                    FYs 1994 through 1999
                                             (millions)
                                     Estimated Costs      Incurred Obligations
                                      Reported in the         and Revised
              Cost Category          Biennial Budget       Outyear Estimates     Difference
       Letterkenny Army Depot                $37.9                $37.2             $0.7
       Tooeie Army Depot                       48.1                 30.1             18.0
       Fort Monmouth                           64.2                 44.6             19.6
       Vint Hill Farms Station                 76.9                 51.5             25.4
       Fort Belvoir R&D Center                 16.6                 14.6              2.0
       Presidio of San Francisco                1.6                  1.6              0.0
       Military Intelligence
        Battalion                                                   3.7
       Program Management                        3K                10.3              2x3
       Environmental                                               19.6             (19:6)
       Revised Outyear Estimates               i:8                 29.6*            (29.6)
           Total                            $288.8               $242.8             $46.0

        *Obligations of $29.6 million to fund the remaining permanent change of station
        costs for BRAC 1993 during FYs 1998 and 1999.


      The FY 1998/l 999 Biennial Budget reported one-time implementation costs that
      were $75.6 million greater than actual incurred obligations for the Army. In
      December 1996, the Army reprogrammed $46 million of the $75.6 million in


                                             4
                            Finding     A. Costs for 1993 Base Realignments         and Closures



    excess budgeted      one-time implementation costs. However, the Army did not
    revise the fiscal   budget estimates for the $46 million reprogramming action.
    A revised fiscal    budget would reflect a more accurate estimate of one-time
    implementation      costs for BRAC 1993.

    Army    Obligations and Disbursements.     The Army properly reconciled
    obligations for one-time implementation costs with actual disbursements
    (expenditures). We reviewed $139.7 million of incurred obligations of
    $2 13.2 million (66 percent) established by the Army for BIUC 1993. We
    verified actual disbursements to source documentation.   The Army reported
    disbursements that approximated established obligations and had no significant
    unliquidated (unexpended) obligation balance for incurred costs for BFUC 1993.


Naval One-Time Implementation                        Costs
    Biennial Budget Reported Costs. We reviewed 16 of the 43 Naval installations
    that were closed or realigned as a result of BRAC 1993. The FY 1998/1999 Biennial
    Budget for the 16 installations reported one-time implementation costs of
    $4.1 billion. The estimate for one-time implementation costs represented 79 percent
    of the total Navy BRAC 1993 costs of $5.2 billion for the 43 installations. We
    verified $1.6 billion (39 percent) of the FYs 1994 through 1996 obligations to source
    documentation.     Table 2 compares FYs 1994 through 1999 estimated one-time
    implementation costs reported in the FY 199811999 Biennial Budget to incurred
    obligations and revised outyear estimates. The incurred Naval obligations included
    actual obligations established for FYs 1994 through 1996 and revised outyear
    estimates for FYs 1997 through 1999. See Appendix C for a comparison of the FY
    1998/l 999 Biennial Budget cost estimates to incurred obligations and revised
    outyear estimates for the 16 Naval installations.

           Table 2. Comparison of Naval Reported FY 1998/1999 Biennial Budget
                       Estimated Costs to Incurred Obligations and
                       Revised Outyear Estimates by Cost Category
                                 FYs 1994 through 1999
                                        (millions)

                                         Estimated Costs     Incurred Obligations
                                          Reported in the         and Revised
            Cost Category                Biennial Budget      .Outyear Estimates      Difference
     MILCON                                  $1,510.3               1,523.9            $ (13.6)
     Environmental                              723.6                 690.6               33.0
     Operations and Maintenance               1,817.2               1,647.9              169.3
     Military - PCS*                              53.6                 68.5              (14.9)
            Total                            $4,104.7             $3,930.9             $173.8

     *Permanent     Change of Station




                                                5
Finding A. Costs for 1993 Defense Base Realignments        and Closures



      As of October 1997, one-time implementation costs estimated in the FY
      1998/l 999 Biennial Budget were overstated by up to $173.8 million. A revised
      fiscal budget would reflect a more accurate estimate of one-time implementation
      costs for BRAC 1993.

      Naval Unliquidated Obligations. For the 16 Naval installations reviewed, the
      Navy maintained an unliquidated obligation balance of up to $178.1 million in
      environmental and operations and maintenance (O&M) costs for FYs 1994
      through 1996. Table 3 identifies total unliquidated obligations by cost category
      for FYs 1994 through 1996.        .


                   Table 3. Naval Unliquidated Obligations by Cost Category
                                    FYs 1994 through 1996
                                            (millions)
           Cost Category          FY 1994         FY 1995        FY 1996          Total
        Environmental               $14.0          $27.8           $32.7          %74.5
        O&M                           5.6           32.8            65.2          103.6
           Total                    $19.6          $60.6           $97.9         $178.1


      An unliquidated obligation is the difference between obligations established for
      incurred costs and actual disbursements. While the FY 1996 unliquidated
      obligations will most likely be required to satisfy valid outstanding incurred costs,
      it is likely that most of the unliquidated obligations in the earlier years are now
      invalid. Delays, errors in posting transactions, and other factors have contributed
      to the current balance. Therefore, it cannot be reasonably concluded that all of the
      unliquidated obligations are invalid. However, if an unliquidated obligation
      balance exists after final disbursements have been made, the Navy should
      coordinate with DFAS to expeditiously deobligate any excess obligations. See
      Appendix D for a summary of unliquidated obligations by cost category for the
      16 Naval installations that we reviewed.


Air Force One-Time Implementation                    Costs
      Biennial Budget Reported Costs. Eight Air Force installations included in
      the FY 1998/l 999 Biennial Budget reported one-time implementation costs of
      $1.2 billion. Of the $1.2 billion, $683.7 million included incurred obligations for
      FYs 1994 through 1996. We reviewed the $683.7 million in obligations and
      verified $609.5 million in obligations to available source documentation. As of
      April 1997, one-time implementation costs estimated in the FY 199811999
      Biennial Budget exceeded obligations by up to $74.2 million. A revised fiscal
      budget would reflect a more accurate estimate of one-time implementation costs
      for BRAC 1993. Costs for program management were centrally accounted for by
      the Air Force. Table 4 shows the FYs 1994 through 1996 reported FY 1998/l 999
      Biennial Budget estimated costs and reported obligations for the eight Air Force
      installations.


                                            6
                      Finding A. Costs for 1993 Base Realignments              and Closures



    Table 4. Comparison of Air Force Reported FY 199811999 Biennial Budget
       Estimated Costs to Incurred Obligations for FYs 1994 through 1996
                                      (millions)

                                                           Incurred
                                    Estimated Costs       Obligations
                                    Reported               Through
         Installation/Account       Biennial Budget        FY 1996              Difference
 March Air Force Base       l              $209.1             $197.0                $12.1
 Newark Air Force Base                       58.6               42.6                 16.0
 K.I. Sawyer Air Force Base                 190.9              186.9
 Plattsburgh Air Force Base                  38.2               39.9                 $1
 Griffiss Air Force Base                     93.5               87.2                  6.3
 Homestead Air Force Base                    39.6               28.0                 11.6
 Gentile Air Force Station                    2.6                4.0                 (l-4)
 O’Hare Air Reserve Station                   0.0                0.0                  0.0
 Program Management                          51.2               23.9                 27.3
 Total                                     $683.7             $609.5                S74.2


Air Force Unliquidated      Obligations. The Air Force maintained an unliquidated
obligation balance of up to $146.8 million for the eight Air Force installations for
FYs 1994 through 1996. Table 5 identifies the unliquidated obligations for the
eight Air Force installations.


            Table 5. Air Force Unliquidated Obligations by Installation for
                               FYs 1994 through 1996
                                       (millions)


         Installation/Account        FY 1994        FY 1995       FY 1996           Total
 March Air Force Base                  $11.8          $16.6            $9.0         $37.4
 Newark Air Force Base                   0.9            0.8              5.0           6.7
 K.I. Sawyer Air Force Base              1.7           21.8             12.1          35.6
 Plattsburgh Air Force Base              2.2            2.7              4.9           9.8
 Grit&s Air Force Base                   7.7           21.6             11.3          40.6
 Homestead Air Force Base                3.2            0.4              5.9           9.5
 Gentile Air Force Station               0.0            0.0              2.4           2.4
 O’Hare Air Reserve Station              0.0            0.0              0.0           0.0
 Program Management                      0.5            1.8              2.5           4.8
  Total                                S28.0          S65.7            s53.1       S146.8


The Air Force and DFAS have begun to determine the finality of one-time
implementation costs and should continue to coordinate to deobligate the excess
obligations. As was previously discussed regarding the Navy, it is likely that
many, but not all of the unliquidated obligations are invalid.

                                       7
Finding A. Costs for 1993 Defense Base Realignments       and Closures



DISA One-Time Implementation                    Costs

      Biennial Budget Reported Costs. The FY 19980999 Biennial Budget reported
      estimated one-time implementation costs of $382.4 million for the closure of
      43 DISA Data Processing Centers (DPCs). DISA budgeted $339.7 million in
      one-time implementation costs for FYs 1994 through 1996. We reviewed the
      $339.7 million and verified $33 1.7 million in obligations to available source
      documentation. The difference between DISA budgeted costs and obligations
      ($8 million) was reasonable.      .

      DISA Unliquidated    Obligations. Although budget estimates reasonably
      approximated obligations established for one-time implementation costs, DISA
      maintained an unliquidated obligation balance of up to $10.8 million for FY 1994;
      $14.2 million for FY 1995; and $80.2 million for FY 1996, totaling
      $105.2 million. DISA personnel are actively reviewing outstanding obligations
      with DFAS to determine whether remaining funding is necessary or whether
      obligations can be deobligated. DISA and DFAS should continue coordination to
      expeditiously deobligate excess obligations for one-time implementation costs.


Summary

      We reviewed $5.4 billion of the FY 1998/1999 Biennial Budget estimated
      one-time implementation costs for BRAC 1993. The Military Departments
      and DISA only obligated $5.1 billion of the available budget, a difference of
      $294 million. We regard the difference as significant but not excessive. The
      variances in obligations are reviewed by the DOD Components and the DOD
      Comptroller when revising each updated fiscal budget for BRK          However, we
      consider unliquidated obligations of $430.1 million to be excessive. Although
      management controls are in place to clear unliquidated obligations after 5 years,
      the Army’s success in reconciling BRAC 1993 obligations and expenditures has
      demonstrated that this can be done in a more timely fashion. To capture actual
      BRAC costs and update BRAC cost estimates, it is highly advisable to accelerate
      the reconciliation process, as the Army did. Because some of the unliquidated
      obligations that we identified date back to FY 1994, it is likely that most of those
      older unliquidated obligations are invalid.

      Combining the potential reductions identified by the audit with those already
      recognized could result in a total potential reduction of up to $1.5 billion from the
      originally estimated BRAC 1993 costs. The fact that costs were less than
      originally estimated, and even less than reported in updated budgets, is good news
      for the DOD.




                                            8
                       Finding A. Costs for 1993 Base Realignments        and Closures



Recommendations         and Management Comments

    To develop a uniform and consistent application of estimated costs resulting
    from Defense base realignment and closure, we recommend that the Under
    Secretary of Defense (Comptroller):

    1. Re-emphasize    to the Services and Defense agencies to:

            a. Coordinate with the Defense Finance and Accounting Service to
    reconcile reported obligations and disbursements with source documents.

            b. Periodically review outstanding obligations and promptly
    deobligate excess obligations when final costs are known.

    Management      Comments. The Deputy Under Secretary (Industrial Affairs and
    Installations) concurred with the recommendation to improve accounting and
    budgeting procedures for recording BRAC costs. Specifically, the Offtce of the
    Deputy Under Secretary will work with the Military Departments and the Office
    of the Under Secretary of Defense (Comptroller) to improve the Department’s
    performance in reconciling and deobligating excess obligations when final costs
    are known.

    The Office of the Under Secretary of Defense (Comptroller) concurred with the
    report recommendations and stated that, within 60 days, specific guidance will be
    issued to the Services and Defense agencies emphasizing the requirement to
    reconcile reported obligations and disbursements with source documents in
    coordination with the Defense Finance and Accounting Service. The Office of the
    Comptroller will also emphasize the requirement to periodically review
    obligations and properly deobligate excess obligations when final costs are
    known. The Office of the Comptroller will ensure that the next Financial
    Management Regulation update contains the recommended guidance. However,
    the Offtce of the Comptroller questioned the reduction of BR4C costs and stated
    that the majority of the unliquidated obligations represented valid obligations that
    will be reconciled and disbursed. The Military Components have coordinated
    with the Defense Finance and Accounting Service to reconcile all obligations to
    source documents to ensure timely disbursements.




                                         9
           Finding B. Savings for 1993 Defense
           Base Realignments and Closures
           The FY 1998/l 999 Biennial Budget savings estimates for the Navy, the
           Air Force, and DISA were understated because various types of savings
           data were inappropriately excluded when the estimates were formulated or
           were not subsequently updated.

                   l Savings estimate8 for 5 Naval industrially-funded installations
           were based on an assumption that only 60 percent of the indirect cost
           reductions would materialize from the closures. The Navy assumed that
           40 percent of the indirect costs would be offset by increased costs to other
           Naval installations absorbing the additional workload.
                  l Three Naval industrially-funded installations did not revise
           savings estimates with actual costs avoided at the time of closure.
                   l Savings estimates for 11 Naval installations did not agree with
           actual reductions in operating budgets.
                   l The Navy did not include the savings from all military
           construction projects that were canceled as a result of BRAC 1993 at
           21 closed or realigned Naval installations.
                  l The Air Force reported savings in the FY 1998/l 999 Biennial
           Budget that were less than operating budget reductions.
                   l The DISA understated savings for 43 DPCs because personnel
           reduction estimates and non-labor cost avoidances were not supported by
           personnel authorizations and operating budgets.
           For the $5.9 billion in savings reviewed for BRAC 1993, reported savings
           were understated by approximately $1.7 billion. This understatement
           indicates a need for better estimating and tracking methodologies.


BRAC Budget Process
    Regulatory Guidance.      The DOD Regulation 7000.14-R “Financial Management
    Regulation,” July 1996, outlines the budget procedures for estimating BRAC
    savings. Each Military Department is required to prepare a savings exhibit for
    each installation to be closed or realigned. BlUC savings estimates are
    specifically identified and must be based on the best projection of what savings
    will actually accrue from the approved closure or realignment.

    BRAC Savings Defined. In their Base Closure Policy Memorandum Two,
    December 4,1992, the Assistant Secretary of Defense for Production and
    Logistics defines BRAC savings as follows: “savings associated with base
    closings should be founded on the elimination of base operating support,
    infrastructure, and related costs.” DOD Regulation 7000.14-R defines BIWC

                                         10
            Finding B. Savings for 1993 Defense Base Realignments         and Closures



    savings as a cost avoidance “that will accrue from the partial or complete closure
    of the base.” The regulation further defines the following DOD cost categories
    where savings are to be realized:

           l   Civilian and military personnel reductions;

           l   Base operations cost reductions; and

           l   MILCON and family housing cancellations.

    In the FY 19980999 Biennial Budget, the BRAC 1993 savings (other than
    MILCON) were computed on a recurring basis and were displayed for a 6-year
    period commencing in FY 1994. BRAC savings were offset by one-time
    implementation costs in the Biennial Budget and were used to determine in what
    year BRAC savings exceeded BRAC costs (pay back period).

    BRAC 1993 Savings. The Military Departments and Defense agencies estimated
    $7.5 billion in savings in the FY 1998/l 999 Biennial Budget for BRAC 1993.
    We reviewed $5.9 billion, or 79 percent of the BIUC 1993 estimated savings.
    See Appendix E for the civilian and military personnel authorization eliminations
    for the Military Departments and DISA.


Army Validation of BRAC Savings Estimates
    The Army estimated savings reported in the FY 1998/1999 Biennial Budget for
    BRAC 1993 reasonably represented the actual Army savings. The Army reported
    estimated savings of $206.8 million in the FY 1998/1999 Biennial Budget for six
    of the seven closed or realigned Army installations. The savings estimate for the
    6 installations included $194.1 million in O&M savings and $12.7 million in
    MILCON savings. The savings estimate for the 6 installations was based on the
    elimination of 1,066 civilian personnel authorizations and the termination of
    Government leased facilities. We reviewed $186.3 million of the O&M estimated
    savings and the $12.7 million in MILCON estimated savings.

    Review of O&M Savings. We reviewed reduced operating budgets for the Army
    Tank-Automotive and Armaments Command, the Communications-Electronics
    Command, and the Army Working Capital Fund. These major commands and the
    Army Working Capital Fund are associated with the closure or realignment of the
    Army installations. We verified the elimination of 1,525 civilian personnel
    authorizations and an overall reduction of Army operating budgets of
    $168.8 million. Army operating budget reductions could not be identified to
    elimination of base-operations-support-related  personnel positions. The
    $17.5 million difference between the results of our review of the O&M savings
    estimate, and the reduced operating budget was attributable to the delayed
    relocation of employees from the leased Communications-Electronics      Command
    Headquarters to Government owned facilities, and the application of an efficiency
    factor for combining Vint Hill Farms Station functions. However, anticipated
    savings should be realized once the lease for the headquarters building is
    terminated in FY 1999.



                                          11
Finding B. Savings for 1993 Defense Base Realignments              and Closures



      Review of MILCON Savings. We reviewed the Army savings estimate of
      $12.7 million resulting from the cancellation of three MILCON projects. The
      Army canceled the three MILCON projects and appropriately reduced funding by
      $12.7 million as shown in the FY 1998/l 999 Biennial Budget.



Naval Validation of BRAC Savings Estimates

      The Navy reported estimated savings of $4.6 billion in the FY 1998/1999
      Biennial Budget for BR4C 1993 including $4.4 billion in O&M, military
      personnel, and family housing savings; and $216.7 million in MILCON savings.
      The Navy estimated savings for 43 closed or realigned Naval installations. We
      selected 20 of the 43 Naval installations and reviewed $3.4 billion, or 77 percent
      of the total savings, other than MILCON. For MILCON, we reviewed
      $204.9 million, or 94 percent of the total Navy estimated savings resulting
      from canceled MILCON projects. Appendix F shows a comparison of Naval
      savings, other than MILCON savings, to audit results by Naval installation.
      Appendix G shows a comparison of Navy reported canceled MILCON savings to
      audit-determined canceled MILCON savings, by Naval installation. Table 6
      sumrnarizes differences in reported savings with our audit results by major Naval
      command.


                          Table 6. Summary of Audit Results - Naval Savings
                                       Other Than MILCON
                                             (millions)
                                                               Savings
                                                             Reported in    Savings     Understated/
                                                               Biennial    yettt        (Overstated)
                                                               Budget                     Savmgs
                      Major Naval Commands                    (millions)   (millions)    (millions)

        Naval Sea Systems Command (Industrially Funded)       $1,102.6      51,676.O       $573.4
        Naval Air Systems Command (Industrially Funded)          684.5         959.9        275.4
        Naval Supply Systems Command (Industrially
           Funded)                                               117.6          166.1        48.5
        Naval Facilities Engineering Command (Industrially
           Funded)                                                18.2          25.6           7.4
        Naval Sea Systems Command                                 38.5          41.1
        Naval Air Systems Command                                 27.8          19.9          (27::)
        Commander-in-Chief, U.S. Atlantic Fleet                 590.5          796.1        205.6
        Commander-in-Chief, U.S. Pacific Fleet                  316.4          267.5        (48.9)
        Chief of Naval Education and Training                   334.9          284.7        ‘$f)
        Naval Reserve Force                                      145.6         158.0
                                                                                  l
        Space and Naval Warfare Systems Command                   59.9                        0:o
                           Total                              s&436.5       $4294.9      Sl,O18.3
        *Undeterminable


      Review of Naval Industrially-Funded     Installation Closures. Eight of the
      20 Naval installations we reviewed were industrially-funded   (reimbursable-
      funded) installations. The closed Naval installations included the Charleston and
      Mare Island Naval Shipyards; the Alameda, Norfolk and Pensacola Naval

                                                  12
        Finding B. Savings for 1993 Defense Base Realignments         and Closures



Aviation Depots; the Charleston and Pensacola Fleet and Industrial Supply
Centers (FISC); and the Naval Civil Engineering Laboratory Port Hueneme. The
Navy established specific assumptions involving the estimation of savings
resulting from the closure of industrially-funded installations.

        Force Structure Savings. The Navy defined direct labor personnel
reductions as force structure savings as opposed to savings resulting from base
closure. The FY 1998/l 999 Biennial Budget did not identify force structure
savings for direct labor costs.

        BRAC Savings. Tke Navy defined indirect labor personnel reductions as
BRAC savings. The Navy also calculated that only 60 percent of the indirect
costs of closing industrially-funded installations would be realized as BRAC
savings. The Navy estimated that the remaining 40 percent of the indirect costs
would transfer, along with the remaining workload, to other Naval installations as
increased costs.

Verification of Estimated BRAC Savings. For the Charleston and Mare Island
Naval Shipyards, the savings estimate in the FY 1998/l 999 Biennial Budget was
understated by as much as $573.4 million. The assumption of including only
60 percent of the indirect costs for the shipyards was conservative. The workload
transfer from Charleston and Mare Island to the gaining shipyards did not affect
the existing indirect costs at the gaining shipyards. For the Alameda, Norfolk,
and Pensacola Naval Aviation Depots, the FY 199811999 Biennial Budget was
understated by as much as $275.4 million. The assumption of including only
60 percent of the indirect costs for the depots was also conservative. Indirect cost
reductions at the gaining and closing depots were measured and adjusted to
exclude cost reductions attributable to decreasing depot workload. The
decreasing workload was unrelated to BRAC. For the Charleston and Pensacola
FISCs, the Navy did not compute savings based on all actual operating costs. We
computed actual operating cost reductions, based on the final year of operation for
the FISCs, which resulted in a net understatement of $48.5 million. For the Naval
Civil Engineering Laboratory, the Navy understated civilian personnel savings by
as much as $7.4 million. See Appendix H for a detailed description of the Navy
estimate of savings for the eight Naval industrially-funded installations and our
analysis of the understatement of savings.

Review of Naval Appropriation-Funded        Installation Closures. Twelve of the
20 closed or realigned Naval installations we reviewed were funded with Naval
appropriations. The 12 closed or realigned Naval installations were subordinate
installations of 7 major Naval commands. The Navy computed savings estimates
in the FY 199811999 Biennial Budget resulting from civilian and military
personnel authorization reductions, and base operations cost reductions.

Verification    of Estimated Savings. For the 12 Naval appropriation-funded
installations that we reviewed, the Navy underestimated savings for
five installations and overestimated savings for six installations in the FY
1998/1999 Biennial Budget. We could not evaluate the accuracy of the savings
estimate for one realigned Naval installation because of changes in the
organization’s funding. Operating budget reductions varied from the Navy
estimates in the FY 1998/l 999 Biennial Budget. The net understatement of

                                     15
Finding B. Savings for 1993 Defense Base Realignments        and Closures



      savings for 11 appropriation-funded    installations was $113.6 million. See
      Appendix I for a detailed description of estimated savings for 12 Naval
      appropriation-funded   installations and our analysis of understated savings.


Naval MILCON
      Canceled Naval MILCON Projects. The Navy did not include all canceled
      MILCON projects in the estimated BIUC 1993 savings computation. We
      reviewed all MILCON project cwellations     for 43 Naval installations that were
      closed or realigned as a result of BR4C 1993. The FY 1998/l 999 Biennial
      Budget reported $216.7 million in savings for canceled MILCON projects.

      Additional Savings From Canceled Naval MILCON Projects. As a result
      of BRAC 1993, MILCON projects were canceled at 21 of the 43 Naval closed or
      realigned installations. However, the Navy only reported $204.9 million in
      savings resulting from canceled MILCON projects. The Navy did not include
      25 MILCON projects, valued at $13 1.4 million, that were canceled or terminated
      for convenience as a result of BRAC 1993. See Appendix G for additional
      savings resulting from canceled or terminated projects.


Air Force Validation of BF2ACSavings Estimates
      As a result of BRAC 1993, the Air Force closed or realigned eight installations.
      The FY 1998/1999 Biennial Budget reported savings of $1.1 billion resulting
      from 1,030 civilian and 3,934 military personnel authorization eliminations.

      Verification of Estimated Savings. The Air Force was not able to provide
      documentation supporting the estimated savings reported in the FY 1998/l 999
      Biennial Budget. We were able to reconstruct the Air Force savings estimate by
      using data from the operating budget. We verified that Air Force operating
      budgets were reduced by $1.2 billion and that 1,076 civilian and 3,888 military
      personnel authorizations were eliminated. The savings estimate reported in the
      FY 1998/l 999 Biennial Budget was $123.5 million lower than the FYs 1994
      through 1999 operating budgets. The reported savings were limited to canceled
      MILCON projects and military and civilian base operating personnel reductions.
      Table 7 is a comparison of the FY 199811999 Biennial Budget to the operating
      budgets.

              Table 7. Comparison of the FY 1998/1999 Biennial Budget to the
                    Air Force Operating Budgets FYs 1994 through 1999
                                         (millions)

                                      operating
      IMILCON
              Savings Category         Budgets
                                      s 101.4
                                                     Biennial Budget
                                                        S 89.0
                                                                        Understated Savings
                                                                              S 12.4
       Military Personnel               649.1             608.3                 40.8
       O&M                              476.1             405.8                 70.3
          Total                      S1,226.6          $1,103.1              $123.5


                                            14
             Finding B. Savings for 1993 Defense Base Realignments         and Closures



DIS A Savings
     DISA reported BRAC savings of $1.1 billion in the FY 1998/l 999 Biennial
     Budget. The $1 .l billion savings estimate represents $557.9 million in labor
     savings resulting from eliminating 2,284 civilian and 386 military personnel
     authorizations, and a $5 15.4 million reduction in non-labor costs.

     Verification of Labor Savings. DISA estimated $557.9 million in labor savings
     for 43 DPCs and 16 megacenters in the FY 1998/l 999 Biennial Budget. Of the
     $557.9 million, $492.1 mil,jion in labor savings was estimated for closing the
     43 DPCs. DISA was unable to explain the computation for estimating labor
     savings. We reviewed labor savings for 37 of the 43 DPCs. We computed labor
     savings and compared our estimate to the DISA estimate in the FY 1998/l 999
     Biennial Budget. To document the number of civilian and military personnel
     authorizations that transferred from the Service-level data processing function to
     DISA and were subsequently eliminated, we used the official transfer of
     operational control document (tripartite agreement, if available), or the site
     implementation plan. We computed labor savings for each DPC using civilian
     and military personnel authorizations, the average salary provided by DISA, and
     the years remaining from the date of DPC closure to FY 1999. We computed
     additional labor savings of at least $248.4 million, which included 2,955 civilian
     and 637 military personnel authorization eliminations. This computation is
     conservative because we did not include personnel reductions prior to the
     complete DPC closure. See Appendix J for the computation of DISA labor
     savings.

    Verification of Non-Labor Savings. DISA estimated $5 15.4 million in
    non-labor savings for 43 DPCs and 16 megacenters. Of the $5 15.4 million,
    $44 1.7 million in non-labor savings was associated with closing the 43 DPCs.
    DISA was not able to explain the computation for estimating non-labor savings.
    We reviewed non-labor savings for 30 of the 43 DPCs. We computed non-labor
    savings and compared our estimate to the DISA estimate in the FY 1998/l 999
    Biennial Budget. We used the FY 1993 operating budget to estimate non-labor
    savings from the date of the DPC closure to FY 1999. We computed additional
    non-labor savings of at least $212.2 million. This computation is conservative
    because we did not include any non-labor savings prior to the complete closure of
    the DPC. See Appendix K for the computation of DISA non-labor savings.

    DISA and the DOD Budget Reduction. The DOD Budget was reduced by
    $4.5 billion for a reduction entitled, “ Defense Information Infrastructure -
    Undistributed,” March 27,1993, for reductions occurring from FYs 1995 through
    1999. However, the DOD Comptroller could not correlate the $4.5 billion
    reduction to the Military Department DPCs or to DISA closures. DISA estimated
    $1.1 billion in savings resulting from the BRAC 1993 closure of the 43 DPCs.
    We computed additional labor savings of $248.4 million and additional non-labor
    savings of $2 12.2 million over the $1.1 billion. The difference between the DOD
    budget reduction and the DISA BRAC savings estimate could not be identified.
    See Appendix L for a description of the Defense information infrastructure
    reduction and the 1993 Commission on Defense Base Closure and Realignment
    (the Commission) decision.



                                         15
Finding B. Savings for 1993 Defense Base Realignments        and Closures



Summary
      The $1.7 billion variation between estimated and actual savings indicates that
      better estimating guidance and controls are needed. Also, better tracking and
      reporting mechanisms for savings are necessary. However, the fact that
      implementation period savings were greater than previously reported is good news
      for DOD. Taken together, the findings in this report indicate that the net positive
      fiscal impact of BRAC 1993, during its implementation period so far, has been
      understated by up to $3.2 billion.
                                         .


Recommendations, Management Comments, and Audit
Response
      To develop a uniform and consistent application of estimated savings
      resulting from Defense base realignment and closure, we recommend that the
      Under Secretary of Defense (Comptroller):

      1. Direct the Services and Defense agencies to:

              a. Retain all pertinent and historical     records documenting
      adjustments to operating budgets resulting       from Defense base realignment
      and closure. The documentation should be         retained for a minimum of five
      years following the expiration of the BRAC        account.

               b. Reconcile the costs of actual workload increases at gaining
      activities used to offset reduced Defense base realignment and closure budget
      savings estimates, especially for closed industrially-funded installations.

              c. Reconcile the number and cost of military and civilian personnel
      authorization eliminations contained in the DOD Base Realignment and
      Closure, Executive Summary and Budget Justification, Biennial Budget
      Estimates.

              d. Retain documentation on both full and partial cancellations of
      programmed military construction projects resulting from Defense base
      realignment and closure decisions.

             e. Report to the Under Secretary of Defense (Comptroller)       revised
      actual savings data outlined in Recommendations a. through d.

             2. Revise the DOD Regulation 7000.14-R, “Financial Management
      Regulation,” July 1996, to require that the DOD Base Realignment and
      Closure, Executive Summary and Budget Justification, Biennial Budget
      Estimates be updated for savings, and replace prior year estimated savings
      with actual savings as reported by the Services and Defense agencies.

      Management Comments. The Deputy Under Secretary (Industrial Affairs and
      Installations) concurred with the report recommendations to improve the

                                           16
       Finding B. Savings for 1993 Defense Base Realignments          and Closures



accounting and budgeting procedures for BIL4C savings. Specifically, the Office
of the Deputy Under Secretary will work with the Military Departments and the
Office of the Under Secretary of Defense (Comptroller) to require that the
Executive Summary and Budget Justification, Biennial Budget Estimates, be
updated for savings and that prior year savings estimates be replaced with actual
savings.

The Office of the Under Secretary of Defense (Comptroller) concurred with the
recommendations and stated that guidance will be issued to the Services and
Defense agencies requiringthem to retain, for a minimum of 5 years, all pertinent
historical records documenting adjustments to operating budgets resulting from
base realignments and closures. The guidance will also address reconciliation
procedures for the number and cost of military and civilian personnel
eliminations; document both full and partial cancellations of programmed military
construction projects; and report revised actual savings data. The Offrce of the
Comptroller will ensure that the next Financial Management Regulation update
contains this guidance. However, the Office of the Comptroller stated that the
precise estimate of savings reported did not fully distinguish BRAC savings from
force structure savings.

Audit Response.     The Offke of the Comptroller is correct in noting that the audit
could not fully distinguish BRAC savings from force structure savings. The
Army savings estimate was developed from a review of operating budget
reductions and those budgets did not distinguish BRAC savings from force
structure savings. The Army did not identify BRAC related personnel position
eliminations. Thus, Army operating budget reductions, relating to base operations
or BRAC position eliminations, could not be segregated into operating budget
reductions unrelated to base operations and BRAC reductions.

The Air Force, the Defense Information Systems Agency, and 15 of the 20 Naval
installations we reviewed distinguished BRAC savings from force structure
savings. BRAC savings were based on operating budget reductions associated
with either the elimination of base operations support personnel, related base
operations support costs, or the indirect portion of industrially-funded operating
budget reductions.




                                     17
Part II - Additional Information
Appendix A. Audit Process

Scope

        Work Performed.      We verified BRAC 1993 budget estimates as reported
        in the “DOD Base Realignment and Closure, Executive Summary and
        Budget Justification, FY 1998/99 Biennial Budget Estimates,” February 1997.
        Table A- 1 provides the FYs 1994 through 1999 BRAC 1993 costs and savings
        reported in the FY 1998/l 999 Biennial Budget. Included in Table A-l is the
        number of closed or realigned DOD organizations resulting from BRAC 1993.

                  Table A-l.    Total BRAC 1993 Costs and Savings Reported
                               in the FY 1998/1999 Biennial Budget

                                            Number of
                                            Closed or
                                          Realigned DOD         costs          Savings
                                           Organizations      (millions)      (millions)
           hY                                                  $ 289           % 207
           NW                                     4;            5,384          4,555
           Air Force                               8            1,227          1,103
           Defense Logistics Agency                               181            538
           DISA                                   4:              382          1,073
             Total                             107            $7,463          $7,476


        Limitations   to Audit Scope. Our initial audit survey covered a limited sample of
        DOD installations. We briefed the Deputy Under Secretary of Defense (Industrial
        Affairs and Installations) in June 1997, on the results of our initial audit survey.
        After that briefing, we expanded our efforts to include an extensive case study of
        the BRAC 1993 costs and savings budget data, which we considered the most
        readily auditable of previous BRAC rounds. This case study focused on the
        installations containing the largest estimated costs and savings. Our audit
        determined that it was not the individual DOD Components’ procedures but the
        overall mechanisms for defining, tracking, and reporting actual BRAC costs and
        savings experience that required improvement. Also, management requested
        during the June 1997 briefing that we audit a greater than normal sample to add
        extra creditability to the results. Therefore, we reviewed 73 percent of reported
        one-time implementation costs and 79 percent of the reported savings. Table A-2
        provides a summary of reviewed FYs 1994 through 1999 BRAC 1993 reported
        costs and savings.




                                             20
                                                            Appendix A. Audit Process




       Table A-2. Summary of Reviewed Military and DOD Installation               BRAC
                        1993 Reported Costs and Say&y

      FY 1998/1999 Biennial Budget One-Time Implementation             Costs Reviewed
                                         (millions)
                         Number of              One-Time           Percentage of Reported
                        Installations     Implementation Costs   Biennial Budget One-Time
                         Reviewed          Selected for Review      Implementation Costs
     Army                     7                S 288.8                      100

     Navy
     Air Force              16
                             8 ’               4,104.7
                                                 683.7                       ::
     DISA                   43                   339.7                       89
       Total                74                S5,416.9                       73

                   FY 1998/1999 Biennial Budget Savings Reviewed
                                         (millions)
                         Number of
                        Installations           Savings            Percentage of Reported
                         Reviewed              Reviewed          Biennial
     Army                                      s 199.0                      96
     Navy                   260                 3,653.2                     79
     Air Force               8                  1,103.i                    100
     DISA                   43                    933.8                     87
       Total                77                S&889.1                       79


Methodology
    Computer-Processed Data. We relied on computer-processed data without
    performing tests of the data to confirm its reliability. We did not establish the
    reliability of the data because audit time frames did not permit such an evaluation.
    However, we concluded that the computer-processed data was sufficiently reliable
    for use in meeting the audit objectives.

    Cost Verification. For verification of obligations established for reported
    one-time implementation costs, we compared DFAS recorded obligations to
    selected Military Department documents supporting the obligation. For
    verification of reported disbursements to obligations established for one-time
    implementation costs, we compared DFAS reported disbursements with selected
    Military Department disbursement records.

    Savings Verification.     For verification of savings resulting from the closure of
    installations that were industrially funded (reimbursable based funding), we
    compared reported savings with the indirect operating costs of the industrially-
    funded installations at the time of closure. We also tested the assumptions (Navy)
    established for the workload transfer to industrially-funded installations by
    measuring increased workload and non-BRAC costs at the installations receiving
    the closing installations’ workload,




                                         21
Appendix A. Audit Process



      For verification of savings resulting from the closure or realignment of military
      installations that were appropriation funded, we compared reported savings with
      appropriation reductions for the closing or realigning installation. We did not
      look for increased operating (non-BRAC) costs that may have been incurred at
      appropriation-funded installations which absorbed the closed or realigned
      installations’ workload for the following reasons.

              l We found no increased operating (non-BRA(Z) costs at industrially-
      funded gaining installations. This was consistent with one of the purposes of
      BRK, which was to reduce existing excess capacity through facility
      consolidation.

              l We foresaw difficulties in determining the reason for changes (increases
      or decreases) in gaining installation operating costs because:

                     - operating costs were af6ected by non-BRAC related realignments
      such as the phasedown of our European forces, peacekeeping missions in Bosnia,
      and the normal and abnormal rotation of troops and ships to the Gulf,

                     - operating costs could be affected by weather and temperature
      variations from one year to the next,

                    - operating cost fluctuations were relatively insignificant
      compared to the total operations of any given base, and to the cost of BRAC.

      Because we found no increased non-BRAC costs at industrially-funded gaining
      installations, we did not review any increased non-BRAC costs that may have
      been incurred at appropriation-funded installations which absorbed the closed or
      realigned installations’ workload.

      The Navy provided us with “ budget marks” that detailed identification of
      recommended savings for closed or realigned Naval installations. We used
      FY 1993 as the final year of full funding for closing installations. We also
      compared civilian and military personnel authorization reductions to official
      manpower documents, when available. For savings resulting from MILCON
      cancellations, we obtained documentation identifying the programmed
      MILCON projects that were scheduled for construction at the closing installation.

      DISA did not have documentation to support the savings claimed for the
      closure of the 43 DPCs. To verify labor savings reported by DISA in the
      FY 1998/l 999 Biennial Budget, we used the official transfer of operational
      control document (tripartite agreement, if available), or site implementation plan,
      to determine personnel authorizations at the DPC prior to closure. Using average
      civilian and military salaries provided by DISA, we computed labor savings from
      the year that the DPC closed to FY 1999. To verify non-labor savings reported by
      DISA in the FY 1998/l 999 Biennial Budget for the closure of the DPCs, we
      reduced the annual labor savings from the total FY 1993 operating costs of the
      DPC and extended the non-labor savings to FY 1999.



                                          22
                                                           Appendix A. Audit Process



    Audit Type, Dates, and Standards. This economy and efficiency audit was
    performed from February 1997 through November 1997 in accordance with
    auditing standards issued by the Comptroller General of the United States as
    implemented by the Inspector General, DOD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.

Management      Control Program
                               .
    The audit indicated a material management control weakness in estimating
    savings for BRAC. In the case of BRAC 1993, the savings estimates were low;
    however, the variances in the other direction are possible without improved
    guidance and procedures. Controls for tracking and reporting both costs and
    savings also need improvement. The recommendations in the report, if
    implemented, will help correct those deficiencies and comply with the sense of
    Congress concerning the need to improve a system to accurately quantify BRAC
    costs and savings. It is anticipated that further efforts to ensure good controls
    over all aspects of future BRAC processes would be made by the Department if
    future BRAC rounds are approved. The IG, DOD, is prepared to assist in such
    efforts.

    We did not review the self evaluation aspect of the management control program
    as it relates to the principal audit objectives because it was outside the scope of
    the request.




                                         23
Appendix B. Summary of Prior Coverage
   General Accounting Office (GAO) Report No. GAO/NSIAD-97-170 (OSD
   Case No. 1378), Report to Congressional Committees, “Militav Base
   Closures: Detailed Budget Requests Could Improve Visibility,” July 1997.
   This report states that less visibility of planned expenditures and changes to
   savings estimates will result if data supporting continued funding for the 1988 and
   199 1 base closure rounds is identified in the aggregate rather than for individual
   bases. The report also states the *quested $139 million for 1988 and 1991 round
   costs to be funded by BRAC III (1993 round) caused the net savings to be
   understated by 12.3 percent for 1998 and 3.6 percent for the 6-year period. DOD
   officials responded to the report by stating that budget data provided to Congress
   provided sufficient visibility, and any additional data could be obtained from the
   Military Departments.

   GAO Report No. GAO/NSIAD-96-149,             (OSD Case No. 1138), “Military
   Bases: Update on the Status of Bases Closed in 1988,1991, and 1993,”
   August 1996. The report states that the Government may incur the loss of land
   sales revenue because of the long leadtimes required for community reuse plans.
   The GAO recommended that the Secretary of Defense establish reasonable time
   frames for concluding negotiated sales of surplus real property and when
   practical, rent unoccupied surplus housing and other facilities as a means of
   preserving property pending final disposition. In comments to the report, the
   Under Secretary of Defense for Acquisition and Technology, partially concurred
   with the recommendation to establish time frames for concluding negotiated sales
   of surplus property, stating that while time frames were probably not practical, it
   would look at establishing time frames where circumstances permit. The Under
   Secretary of Defense for Acquisition and Technology, nonconcurred with the
   recommendation to rent unoccupied housing, pointing out that the report inferred
   a ready market for Government housing and did not take into account the effects
   on the local housing market. GAO acknowledged that the recommendations          may
   not be useful at every closing installation, but past lessons learned should be
   considered.

   GAO Report No. GAO/NSIAD-96-67, (OSD Case No. 1073), “Military
   Bases - Closure and Realignment Savings are Significant, but not Easily
   Quantified,*’ April 1996. The report states that savings from Defense base
   realignment and closure should be significant, but actual savings are uncertain
   because DOD systems do not provide information on actual savings. The GAO
   analyzed operations and maintenance costs at nine closing installations and
   concluded that actual base support costs have been reduced, which should result
   in substantial savings. However, DOD and Service accounting systems are not
   configured to provide information concerning actual savings. The report
   recommended that the Secretary of Defense explain the methodology used to
   estimate savings in future BILAC budget submissions and note in the submissions
   that all BRAC-related costs are not included. In comments to the report, DOD
   stated that inconsistencies in budget savings estimates were the result of allowing
   the Services to have reporting flexibility. The DOD also states that cost estimates
   in BRAC budget submissions did not include costs paid from other DOD accounts
   or non-DOD appropriations, and acknowledged that BRAC budget submissions

                                        24
                                       Appendix B. Summary of Prior Coverage



should include an advisory statement that economic assistance and non-DOD costs
are not included. The DOD also said it would consider including a statement that
the BRAC budget submissions are based on initial cost and savings estimates.

GAO Report No. GAO/T-NSIAD-95-107,           (OSD Case No. 9872), “Military
Bases: Challenges in Identifying and Implementing Closure
Recommendations,”      February 23,1995. The report contains testimony to
the Subcommittee on Military Installations and Facilities, Committee on National
Security, House of Representatives, regarding the status of GAO’s assessment of
BRAC 1995. The report s&tes that, while most BRAC decisions were adequately
supported, problems exist in documentation of decisions and some
recommendations by DOD Components. Also, the report mentioned the
 1993 GAO review of BRAC, which found that the Office of the Secretary of
Defense did not exercise strong leadership in overseeing the Military Departments
and DOD agencies in the BRAC process. The report contained
no recommendations.

GAO Report No. GAO-NSIAD-95-60 (OSD Case No. 9333-F), “Aerospace
Guidance and Metrology Center, Cost Growth and Other Factors Affect
Closure and Privatization,” December 1994. The GAO found that the
projected cost of closing the Aerospace Guidance and Metrology Center has
doubled and may continue to increase. The $3.8 million annual savings projected
to result from the closure is not likely to be realized because of potentially higher
costs related to the privatization of a depot maintenance facility and other factors,
and the payback period could be extended to over 100 years. The report
recommended that the Secretaries of the Air Force and Defense reevaluate, as a
part of the ongoing BRAC 1995 process, both the 1993 DOD recommendation to
close Newark Air Force Base and the Air Force approach to implementing the
closure decision through privatization-in-place.

Inspector General, DOD, Report No. 96-163, “Defense Base Closure Account
Funds Other Than Military Construction Funds,” June 14,1996. The report
states that the Military Departments and the Defense Logistics Agency used
BRAC O&M funds inconsistently during FYs 1994 and 1995, which may result
in inaccurate reporting of BRAC costs. Also, the report states that there is
insufficient assurance that BIUC O&M funds are being spent correctly on BRW
costs. The report recommended that the Military Departments and the Defense
Logistics Agency coordinate with the Department of Defense (Comptroller) to
obtain decisions on any BRAC funding issues that need clarification, in order to
properly record BRAC expenses in the appropriate subaccount. The Comptroller,
the Assistant Secretary of the Air Force (Financial Management and Comptroller),
and the Principal Deputy Director for the Defense Logistics Agency concurred
with the recommendations.




                                      25
Appendix C. Comparison of Naval Reported
Estimated Costs in the FY 1998/1999 Biennial
Budget to Incurred Obligations and Revised
Outyear Estimates


                        Table C-l. l
                                   MILCON Costs
                                     (thousands)

                                                   FYs 1994 through 1999
                                       One-Time           Incurred
                                    Implementation     Obligations and
                                   Costs Reported in Revised Outyear
                                    Biennial Budget       Estimates        Difference
Marine Corps Air Station El Toro      $ 375,405         $ 369,805           $ 5,600
National Capital Region
Naval Air Station Alameda                23,590
                                        168,467           23,655
                                                         184,040            ‘“z
Naval Air Station Barbers Point         155,684          150,203              5,481
Naval Air Station Dallas                109,789          115,421             (5,632)
Naval Air Station Memphis               349,112          337,729             11,383
Naval Air Warfare Center Trenton         79,155           79,040                115
Naval Aviation Depot Alameda              1,700            1,338                362
Naval Aviation Depot Norfolk             17,674           22,623             (4,949)
Naval Aviation Depot Pensacola
Naval Shipyard Charleston                21,500
                                          7,390           23,582
                                                           8,509              AXIS
Naval Shipyard Mare Island               35,596
                                         25,903           44,469
                                                          26,380              (8;i;;j
Naval Station Charleston
Naval Station Staten Island               6,160             6,842               (682)
Naval Station Treasure Island            36,750            38,566             qf:;1
Naval Training Center Orlando            96,386            91,653
  Total MILCON                       $1,510,261       !§1,523,855          !&13:59q




                                          26
 Appendix C. Comparison of Naval Reported Estimated Costs in the FY 199811999
          Biennial Budget to Incurred Obligations and Revised Outyear Estimates



                     Table C-2. Environmental                 Costs
                                        (thousands)

                                                       FYs 1994 through 1999
                                           One-Time           Incurred
                                        Implementation     Obligations and
                                       Costs Reported in Revised Outyear
                                        Biennial Budget       Estimates      Difference
Marine Corps Air Station El Toro   l       $166,014         $130,778          $35,236
National Capital Region                          150                0              150
Naval Air Station Alameda                    97,659          109,524          (11’;;;)
Naval Air Station Barbers Point              31,321           30,590
Naval Air Station Dallas                     33,023           32,076               947
Naval Air Station Memphis                    20,403           19,962               441
Naval Air Warfare Center Trenton             20,443           21,650            (;J$)
Naval Aviation Depot Alameda                 32,844           26,948
Naval Aviation Depot Norfolk                  5,778           13,829            (8;;;;;
Naval Aviation Depot Pensacola                2,170            2,586
Naval Shipyard Charleston                    47,952           51,054            (3,102)
Naval Shipyard Mare Island                  174,261          163,488           10,773
Naval Station Charleston                     33,815           33,366               449
Naval Station Staten Island                   3,973            4,839              (866)
Naval Station Treasure Island                26,852           25,154             1,698
Naval Training Center Orlando                26,962           24,786             2,176
 Total Environmental                       $723,620         $690,630          $32,990




                                             27
Appendix C. Comparison of Naval Reported Estimated Costs in the FY 1998/1999
Biennial Budget to Incurred Obligations and Revised Outyear Estimates



                           Table C-3. O&M Costs
                                   (thousands)

                                                  FYs 1994 through 1999
                                       One-Time           Incurred
                                    Implementation     Obligations and
                                   Costs Reported in Revised Outyear
                                    Biennial Budget       Estimates       Difference
Marine Corps Air Station El Toro     l
                                     $   86,849         $ 76,806           $ 10,043
National Capital Region                105,774             84,939            20,835
Naval Air Station Alameda                61,530            49,402            12,128
Naval Air Station Barbers Point          25,096            32,698            $6;;)
Naval Air Station Dallas                 26,313            22,019
Naval Air Station Memphis                56,077            52,054              4;023
Naval Air Warfare Center Trenton         65,42 1           56,423              8,998
Naval Aviation Depot Alameda           146,293           145,805                 488
Naval Aviation Depot Norfolk           161,449           152,468               8,98 1
Naval Aviation Depot Pensacola         104,795             98,620              6,175
Naval Shipyard Charleston              335,968           345,838              (9,870)
Naval Shipyard Mare Island             425,878           440,656            (l;$)
Naval Station Charleston                 36,65 1           29,438
Naval Station Staten Island            126,819             12,642          114:177
Naval Station Treasure Island            32,523            25,149             7,374
Naval Training Center Orlando            19,807            22,893            (3,086)
  Total O&M                          %1,817J43         %1,647,850         $169,393




                                         28
 Appendix C. Comparison of Naval Reported Estimated Costs in the FY 199811999
          Biennial Budget to Incurred Obligations and Revised Outyear Estimates



    Table C-4. Military - Permanent Change of Station Costs
                                        (thousands)

                                                       FYs 1994 through 1999
                                           One-Time            Incurred
                                        Implementation     Obligations and
                                       Costs Reported in Revised Outyear
                                        Biennial Budget       Estimates        Difference
                                   .
Marine Corps Air Station El Toro           $14,310           $15,917
National Capital Region                      1,688             2,949             ;tq
Naval Air Station Alameda                   14,673            12,420              2;253
Naval Air Station Barbers Point              2,227             2,906                (ii;)
Naval Air Station Dallas                     1,555             1,073
Naval Air Station Memphis                    4,228             1,482              2,746
Naval Air Warfare Center Trenton                1150              10;                 (Z)
Naval Aviation Depot Alameda
Naval Aviation Depot Norfolk
Naval Aviation Depot Pensacola                   :;               66
                                                                  61                 (17)
                                                                                     (24)
Naval Shipyard Charleston                     2,094            1,313                 781
Naval Shipyard Mare Island                      929              929
Naval Station Charleston                      6,923           18,190            (ll;;J~j
Naval Station Staten Island                     730            1,298
Naval Station Treasure Island                   903            2,520
Naval Training Center Orlando                 3,126            7,269
 Total Military - Permanent
    Change of Station                      $53,587           $68,509           %(14,922)




                                             29
                                                           Table D-l. Environmental Costs
                                                                                        (thousands)

                                                        FY 1994                                          FY 1995                                   FY 1996
                  Installation            Oblirrtions   Disbursements    Difference     Oblirations      Disbursements     Difference     oblimtions
                                                                                                                                                  Disbursements        Difference

    Marine Corps Air Starion El Toro       S 26.014         523.238       S 2.776        f 18.630            s 14,ws        S 3,635        s 19.027          SlO.354   s 8.673
    Nationd Capital Region                          0                0              0                0                 0              0              0             0          0

    Naval Air Station Alameda                 19.888         17,697         2,191           18,149              7,194        10.955          13.559            5.517      8.042

    Naval Air Station Barbers Point            6.861          6.537            324           6.499              4.415         2.084             507              103        404

    Naval Air Station Dallas                   3.177          3.082             95            5,929             5,866                63       2.020            I.414        606
                                                                                                                                                         .
    Naval Air Sation Memphis                   1,441           I .439               2         3.292             3.207                a5       I.545              997        548
w
0   Naval Air Warfare Center Trenton           2.036          2.374           462            2.075              1.727            348          2.899            I.679      I.220

    Naval Avhtion     Depot Alameda              202             202                0         8,565             8.821           (256)        18.181           18.412       (231)

    Naval Aviatkm Depot Norfolk                  407             249           158                 430             122           3Oll         7.946            7,949          (3)

    Naval Avhtion     Depot Pensacola            950             881            69            1,636             1,452            I84                 0             0           0

    Naval Shiid        Charleston              9.426          8,746            680          26,215             21.511         4,704           6,172            4.215      I.957

    Naval Shipyard Man Island                 30,523         23.412         7.111           30.341             25,807         4.534          15.105            7.773      7.332

    Naval Stdon     Charleston                   238             232                6                4                 4              0       6.700            6.700           0

    Naval Station Staten Island                  140             I25            IS                 562            550                12       1.159            1.100         59

    Naval Station l’tusun        Island        2.314          2.208            106            3,029             2.316            713          2.506              574      I.932

    Naval Training Center Orlando              2.885          2.843             42           7,053              6.590            463          3.104              913      2.191

      T#rl                                $107382           593J65        314,037        sru,ra,            5104,577        $27332        s100,430           %7,7@0    $32,738
                                                                  Table D-2. O&M Costs
                                                                         (thousands)

                                                  FY 1994                                     FY 1995                                   FY 1996
            lnstallrtion             Oblimtions   Disbursenxnts    Difference   Obligations   Disburscrnem   Difference   Oblinrtions   Disbursmms    Diffetmx

Mmine Corps Air Sthnt      El Ton,      s 905          S 521         s 384       s 5.970         S 2,223      s 3.747      s 7.391         S 2,673     S 4.718

Nltiond   C&al    Region                  402             395               7       4.942          4.156          786       27.387          15.219      12.168

Nwrl Air Station Ah&                    4.217           3.061         1.156         8.910           1.528       7.382         7.226         -3,984       3,242

Naval Air Sation Baths      Point            0               0              0       4.865          3.869          996         I.513            384       1.129

Naval Air Station m                     2,422           2.040           382         I .787          1.613         174         9.450          3.341       6.109

Navtl Air Stltion Memphis               5.215           5,001           214         8.169          7.781          388        35.731         32,180       3,551

Nwrl Air Wrtfm       Cemcr Tmwon        2.199           2.195               4      14.939          14.no          169        IO.322          9.541         781

Naval Aviaion Depot Ahmeda             14.021          14.017               4      56.714         56.581          133        63,789         61.700       2.089

Naval Aviation Depot Norfolk           12,270          12.056           214        46.817         46,456          361        81.232         79.975       1,257

Naval Aviation Depot Pctwacoh          32,653          32.446           207        46.370         44.3%         1.974        14.642         12.2%        2.346

Naval ShipyardCharleston               71.701          72.060          (359)      IW.731         104.129          602       103.619         91.582      12.037

Naval ShipyardMarcIsM                  80.359          79.940           419       169.279        157.836       11,443       128.214        I 17.282     10,932

Naval StationStatenIsland               8.793           7.733         1.060         3,456           2.780         676           327            209         I18

Naval StationCharWon                     5.550          4.129         1.421        Il.380           0.792       2Jm8          7.062          6.076         9%

Navll StationTrcasuteIsland              3,284          3.159            125        I.315           I.060         255         5.664          4.171       1.493
Naval Ttaiaing CenterOrlando             3.166          2.847           319         5.248           4,151        1.097        7.009          4,782       2.227

  TOtSI                              S247,lsI        S241.600        S!w7       S49w2           w62.121      S32.771      SSlO.nS         )445,3%      $65,183
Appendix E. Civilian and Military Personnel
Authorization Eliminations
                                                                 Biennial Budget          Audit Results
                      Service/Installation                      Civilian Militarv      Civilian   Military

 AMY                                                                1,066        0       1,525’            0
 Navy
  Naval Sea Systems Command (Industrially Fuhded)
     Naval Shipyard Charleston                                     5,564        54       4,684
     Naval Shipyard Mare Island                                    6,002       144       6,628
  Naval Air Systems Command (Industrially Funded)
     Naval Aviation Depot Alameda                                  1,709        28       1,709’       28*
                                                                                                               2
     Naval Aviation Depot Norfolk                                  2,116                 2,116’
     Naval Aviation Depot Pensacola                                1,136        3266     1,136’       z*

  Naval Supply Systems Command (Industrially Funded)
     Fleet and Industrial Supply Center Charleston                   239                   239
     Fleet and Industrial Supply Center Pensacola                     85        1:          85        1:
  Naval Facilities Engineering Command (Industrially Funded)
     Naval Civil Engineering Laboratory Port Hueneme                  64        IO          64        lo*
   Naval Sea Systems Command
     Naval Undersea Warfare Center Norfolk                            95         0          95
     Naval Surface Warfare Center White Oak                           55        20          54        2:
  Naval Air Systems Command
     Naval Air Warfare Center Trenton                                269          1        198             0
   Commander-in-Chief, U.S. Atlantic Fleet
     Naval Air Station Cecil Field                                   352       676         469
     Naval Station Charleston                                        569     1,132         572     6,93!’
     Naval Station Staten Island                                     363       387         400       646
   Commander-m-Chief, U.S. Pacific Fleet
     Naval Air Station Alameda                                       358       537         390       576
     Naval Air Station Miramar                                       333       894         506       444
  Chief of Naval Education and Training
     Naval Air Station Memphis                                       295       514         223       407
     Naval Training Center San Diego                                 182       407         150       360
  Naval Reserve Force
     Naval Air Station Glenview                                      176       375         177      3752
   Space and Naval Warfare Systems Command
     Naval Command, Control, and Surveillance Center                                         6’
 Air Force                                                         1,0::     3,9::       1,076     3,88;
 DISA                                                              2,284       386       2,955       637
  Total                                                           24,365     9,593      25,457    14,481
‘We could not segregate between force structure and BRAC savings.
‘Verification of savings based on funding. Authorization eliminations were assumed.




                                                   32
Appendix F.                   Naval Savings, Other Than
MILCON
                                                                  Savings’        Savings     Understated/
                                                                Reported in      p~~$it       (Overstated)
                                                              Biennial Budget                   Savmgs
                                                                 (millions)     (millions)     (millions)
Naval Sea Systems Command (Industrially Funded)
    Naval Shipyard Charleston          l                         $ 412.5          $ 560.0       $147.5
    Naval Shipyard Mare Island                                     690.1           1,116.0       425.9
Naval Air Systems Command (Industrially Funded)
    Naval Aviation Depot Alameda                                    220.5
    Naval Aviation Depot Norfolk                                    161.6                        275.4
    Naval Aviation Depot Pensacola                                  302.4
Naval Supply Systems Command (Industrially Funded)
    Fleet and Industrial Supply Center Charleston                    64.5            127.8        63.3
    Fleet and Industrial Supply Center Pensacola                     53.1             38.3       ( 4.8)
Naval Facilities Engineering Command (Industrially Funded)
    Naval Civil Engineering Laboratory Port Hueneme                  18.2            25.6            7.4
Naval Sea Systems Command
    Naval Undersea Warfare Center Norfolk                            26.6            28.8            2.2
    Naval Surface Warfare Center White Oak                           1I.9            12.3            0.4
Naval Air Systems Command
    Naval Air Warfare Center Trenton                                 27.8             19.9           7.9)
Commander-in-Chief, U.S. Atlantic Fleet
    Naval Air Station Cecil Field                                   122.3            67.8        (54.5)
    Naval Station Charleston                                        247.8           455.9        208.1
    Naval Station Staten Island                                     220.4           272.4         52.0
Commander-in-Chief, U.S. Pacific Fleet
    Naval Air Station Alameda                                       147.0            137.0
    Naval Air Station Miramar                                       169.4            130.5
Chief of Naval Education and Training
    Naval Air Station Memphis                                       183.6            145.2
    Naval Training Center San Diego                                 151.3            139.5
Naval Reserve Force
    Naval Air Station Glenview                                      145.6            158.0
Space and Naval Warfare Systems Command
    Naval Command, Control, and Surveillance Center                 59.9               o.02        o.02
         Total                                                   $X$436.5        s4g94.9      $1,018.3

‘Savings reported net of savings estimated for MILCON.
‘We could not determine the accuracy of estimated savings because of changes in the organization’s
funding.




                                                   33
Appendix G. Additional Naval MILCON Savings

                                                  Canceled       Canceled
                                                 Projects Per   Projects Per
                                                   Biennial        Audit       Additional
                                                   Budget         Results       Savings
  Closed or Realigned Naval Installations         (millions)     (millions)    (millions)

Marine Corps Air Station El Toro                    19.9           19.6          (0.3)
Naval Air Station Agana, Guam                        8.5            8.7           0.2
Naval Air Station Alameda                            9.3            9.6           0.3
Naval Air Station Barbers Point                     19.8           34.4          14.6’
Naval Air Station Cecil Field                       16.5           21.6           5.1
Naval Air Station Glenview                           7.5           14.0           6.5
Naval Air Station Memphis                           16.7           30.8          14.1
Naval Air Station Miramar                            6.2           15.9           9.7
Naval Aviation Depot Alameda                         2.2            2.4           0.2
Naval Aviation Depot Norfolk                        17.8           17.8           0.0
Naval Aviation Depot Pensacola                       1.5            1.6           0.1
Naval Reserve Training Facility Annapolis            0.0            5.2           5.2
Naval Reserve Training Facility Virginia             0.0            5.2           5.2
Naval Shipyard Charleston                            2.8            5.1           2.3
Naval Shipyard Mare Island                          20.1           28.1           8.0
Naval Station Charleston                             3.4            7.6           4.2
Naval Station Staten Island                         13.9           30.5          16.6
Naval Station Treasure Island                        4.8            5.1           0.3
Naval Training Center Orlando                        8.1           18.1          10.0
Naval Training Center San Diego                     22.1           23.8           1.7
Naval Weapon Station Seal Beach                      3.8           31.2          27.4
 Total                                           $204.9         $336.3          131.4

‘Includes the savings for family housing canceled as a result of BRAC 1993.




                                            34
Appendix II. Naval Indust :rially-Funded
Installation C losures


Naval Sea Systems Command

    Shipyard Closures.    For the closure of Charleston and Mare Island Naval
    Shipyards, the Navy reported BRAC savings of $1.1 billion associated with the
    elimination of 11,566 civilian personnel authorizations. The elimination of
    11,566 civilian personnel authorizations included both direct and indirect labor
    costs.

    Verification of Estimated Savings. The savings estimate in the FY 1998/1999
    Biennial Budget was understated by as much as $573.4 million. Although the
    Navy eliminated 11,566 civilian personnel authorizations, the assumption of
    including only 60 percent of the indirect costs for the shipyards was conservative.
    We reviewed the actual indirect costs compiled for three gaining shipyards that
    absorbed the Charleston and Mare Island workload. Table H- 1 lists indirect costs
    for FY 1993 (before the transfer of the shipyards workload), actual indirect costs
    f”96FsYs1994 through 1996, and projected indirect costs for FYs 1997 through
         .


                   Table H-l. Indirect Costs at Naval Shipyards Receiving
                         Charleston’s and Mare Island’s Workload
                                              (millions)
                                               FY           FY        FY                    FY
       Shipyard        AT3        lZ4         1995         1996      1997      l&           1999
     Puget Sound      $306.6    $312.3’     $345.2,     $3 19.9    $287.9     $301.9      $311.4
     Norfolk           320.2     302.3       295.3       264.8      288.2      284.5       292.8
     Portsmouth        212.5     193.0       164.4       153.1      152.5      146.3       149.7
     *Non-labor procurement costs included as part of the indirect costs listed for FYs 1994 and
     1995 for Puget Sound were incorrectly shown as costs for both Mare Island and Puget Sound
     Naval Shipyards.

    The indirect costs listed in Table H-l indicate that the workload transferring from
    the shipyards would not significantly affect the existing indirect costs at the
    gaining shipyards. The workload transfer from Charleston and Mare Island to the
    gaining shipyards did not increase the overall indirect costs to the Navy. The
    Navy took advantage of excess capacity at the gaining shipyards. Therefore, the
    Navy assumption that the remaining shipyard workload would increase indirect
    costs at the gaining shipyards by as much as $573.4 million did not materialize.




                                              35
Appendix H. Naval Industrially-Funded      Installation   Closures



Naval Air Systems Command

      Depot Closures. For the closures of the Naval Aviation Depots at Alameda,
      Norfolk, and Pensacola, the Navy reported BRAC savings of $684.5 million
      associated with the elimination of 4,96 1 civilian personnel authorizations. The
      elimination of 4,961 civilian personnel authorizations included both direct and
      indirect labor costs.

      Verification  of Estimated Savin s. The savings estimate in the FY 199811999
      Biennial Budget was understated 6 y as much as $275.4 million. Although the
      Navy eliminated 4,96 1 civilian personnel authorizations, the assumption of
      including 60 percent of the indirect costs for the depots was conservative. We
      reviewed the actual indirect costs for the gaining and closing depots to determine
      the decrease in indirect costs for FYs 1994 through 1996. We projected indirect
      costs for FYs 1997 through 1999. The total amount of work performed at Naval
      Air Systems Command depots, measured in direct labor hours, had been
      decreasing since FY 1993. The decreasing depot workload was unrelated to
      BRAC 1993 and accounted for $4 10.4 million of indirect cost reductions. Table
      H-2 shows the changes in indirect costs and our adjustments based on the reduced
      workload.

             Table H-2. Naval Air Systems Command Depots Indirect Costs
                                          (millions)
                        Reduction of       Less Reduction Based
                        Depot Indirect      on Decreased Depot
       Fiscal Year         costs                 Workload            BlUC Reductions
          1994              $ 56.7                      $ 7.4                $49.3
          1995               156.4                       32.8                 123.6
          1996               289.3                       57.9                 231.4
          1997               289.3                      104.1                 185.2
          1998               289.3                      104.1                 185.2
          1999               289.3                      104.1                 185.2
          Total           $1,370.3                     $410.4               $959.9
       Less: Savings per Biennial Budget (O&M and Other Savings)             684.5
       Net Understatement    of Reported Savings                            $275.4


Naval Supply Systems Command

      FISC Closures. For the closure of the Charleston and Pensacola FISCs, the Navy
      reported BRAC savings in the FY 199811999 Biennial Budget of $64.5 million
      and $53.1 million, respectively. The $64.5 million in BRAC savings reported for
      the Charleston FISC was associated with the elimination of 239 civilian and
      5 military personnel authorizations. The $53.1 million in BRAC savings reported
      for the Pensacola FISC was associated with the elimination of 85 civilian and
      17 military personnel authorizations.


                                          36
                 Appendix H. Naval Industrially-Funded         Installation     Closures



Verification of Estimated Savings. The Naval Supply Systems Command
provided FYs 1993 through 1996 actual base operating costs for the Charleston
FISC and FYs 1993 through 1995 for the Pensacola FISC. When FISC operations
were terminated, base operating costs were avoided and reflected in reduced
operating budgets. These actual operating costs, including civilian and military
salaries, represent total costs for the final years of operation for the Charleston and
Pensacola FISCs. The savings estimate in the FY 1998/l 999 Biennial Budget
was understated by as much as $63.3 million for the Charleston FISC and
overstated by as much as $14.8 million for the Pensacola FISC. The Pensacola
FISC did incur offsetting cysts of $16.6 million.

Computation of Savings Estimates. While the Navy based the savings estimate
on civilian and military personnel reductions, we computed the savings estimate
based on all actual operating costs beginning with FY 1993 (the last full year of
operation). To determine savings, we documented reduced FISC actual operating
costs for FYs 1994 through 1999. Operating costs for the Charleston FISC were
reduced $127.8 million. Operating costs for the Pensacola FISC were reduced
$54.9 million. Table H-3 identifies the Charleston FISC estimated savings
understatement of $63.3 million.

    Table H-3. Charleston FISC Reported and Computed BRAC Savings
                                (millions)
                       Actual           Computed         Reported       Understated
   Fiscal Year     Onerating Costs       SavinPs         Savings          Savings
      1993             $28.3              $ 0.0            $0.0               $0.0
      1994              24.4                3.9              0.5
      1995              13.2               15.1              5.4                z.‘:
      1996               4.4               23.9             13.9               1o:o
      1997                                 28.3             15.5               12.8
      1998               E                 28.3             14.8               13.5
      1999               0:o               28.3             14.4               13.9
      Total            $70.3             $127.8           $64.5               $63.3




                                      37
Appendix H. Naval Industrially-Funded        Installation Closures



      Table H-4 identifies the estimated savings overstatement of $14.8 million for the
      Pensacola FISC.

           Table H-4. Pensacola FISC Reported and Computed BRAC Savings
                                             (millions)
                                                                         Understated/
                               Actual          Computed     Reported     (Overstated)
         Fiscal Year       Onerating Costs      Savings     Savings        Savings
             1993             $12.4     ’          $0.0        %0.0         $0.0
             1994              12.2                  0.2        0.0           0.2
             1995               7.3
             1996                                  1;*:         K             ;:;
             1997               :*:                12:4        14:4          (2.0)
             1998               0:o                12.4        14.7
             1999               0.0                12.4        14.8
          Subtotal            $31.9               $54.9       $53.1
       Less: Offsetting Costs at Gaining Activities                         (16.6)
       Net Overstatement     in Estimated Savings                          S(14.8)


Naval Facilities Engineering Command

      Naval Civil Engineering   Laboratory Closure. The Naval Civil Engineering
      Laboratory combined functions with several other laboratories at the Naval
      Facilities Engineering Service Center Port Hueneme in 1993. The Navy
      estimated BRAC savings in the FY 19980999 Biennial Budget of $18.2 million
      based on the elimination of 64 civilian and 10 military personnel authorizations
      and reduced base operating costs.

      Verification  of Estimated Savings. The FY 19980999 Biennial Budget
      included $8.2 million for civilian personnel reductions and $10 million for
      savings categorized as “other.” We could not verify the savings estimate of
      $10 million that was categorized as “other.” The Business Operations Office at
      the Engineering Service Center could not segregate base operating costs for the
      former Naval Civil Engineering Laboratory operations at the Engineering Service
      Center. Therefore, we limited our analysis to civilian personnel savings. We
      verified the number of civilian personnel authorizations that were eliminated and
      computed $15.6 million for the elimination of 64 civilian personnel
      authorizations. The $8.2 million savings estimate for civilian reductions was
      understated by as much as $7.4 million.




                                             38
Appendix I. Naval Appropriation-Funded
Installation Closures

Naval Sea Systems Command

    Warfare Center Closures.      The savings estimate in the FY 199811999 Biennial
    Budget for the Naval Undersea Warfare Center Norfolk and the Naval Surface
    Warfare Center White Oak was $26.6 million and $11.9 million, respectively.
    The estimated savings resulted from eliminating 95 civilian personnel
    authorizations at the Naval Undersea Warfare Center and 75 civilian and military
    personnel authorizations at the Naval Surface Warfare Center. In addition, the
    Naval Undersea Warfare Center would need to maintain an annual lease of
    $2.5 million until the end of FY 1999.

     Verification  of Estimated Savings. The Naval Sea Systems Command budgets
     had been reduced to eliminate 95 Naval Undersea Warfare Center civilian
     personnel authorizations and 76 Naval Surface Warfare Center civilian and
     military personnel authorizations. The Naval Undersea Warfare Center lease cost
     was also eliminated. The total Naval Warfare Center operating budget was
     reduced by $41.1 million. Therefore, the savings estimate of $38.5 million in the
     FY 1998/1999 Biennial Budget was understated by as much as $2.6 million for
     both warfare centers.


Naval Air Systems Command

     Naval Air Warfare Center Closure.      For the closure of the Naval Air Warfare
     Center Trenton, the Navy reported BRAC savings of $27.8 million. The savings
     were based on eliminating 269 civilian personnel authorizations and transitioning
     the workload from Naval Air Warfare Center Trenton to Naval Air Warfare
     Center Patuxent River.

     Verification  of Estimated Savings. Naval Air Warfare Center Trenton was
     impacted by BRACs 199 1 and 1993. The Naval Air Warfare Center Patuxent
     River eliminated 198 civilian personnel authorizations as a result of BRAC 1993.
     Based on average labor costs for Naval Air Warfare Center Trenton, eliminating
     civilian personnel authorizations will result in savings of $19.9 million. The FY
     1998/1999 Biennial Budget was overstated by as much as $7.9 million.


Commander-in-Chief,           U.S. Atlantic Fleet

     Naval Closures.   For the closure or realignment of Naval Air Station (NAS) Cecil
     Field and Naval Stations Charleston and Staten Island, the Navy reported BRAC
     savings of $590.5 million. Eliminating civilian and military personnel
     authorizations and reducing base operating costs were the basis for the savings.

                                         39
Appendix I. Naval Appropriation-Funded             Installation    Closures



      The savings reported in the FY 1998/1999 Biennial Budget resulted from
      eliminating 352 civilian and 676 military personnel authorizations for NAS Cecil
      Field, 569 civilian and 1,132 military personnel authorizations for Naval Station
      Charleston and 363 civilian and 387 military personnel authorizations for Naval
      Station Staten Island. Our review disclosed that the savings were understated by
      as much as $205.6 million for the three Naval installations. The following table
      compares the estimated savings in the FY 199811999 Biennial Budget to the audit
      results.

                                    Summary of Audit Results
                               Commander-in-Chief, U.S. Atlantic Fleet
                                               (millions)
                                                                                      Understated or
                                       Savings Reported in        Savings per Audit    (Overstated)
                Installation             Biennial Budget               Results           Savings
        NAS Cecil Field                      $122.3                   S 67.8            w;.;’
        Naval Station Charleston              247.8                    455.9
        Naval Station Staten island           220.4                    272.4              52:o
          Total                              s590.5                   S796.1            S205.6


      Verification   of Estimated Savings - NAS Cecil Field. The savings for NAS
      Cecil Field reported in the FY 1998/l 999 Biennial Budget were overstated by as
      much as $54.5 million. Past operating budgets and official manpower documents
      indicated that the O&M savings estimate reported in the FY 1998/l 999 Biennial
      Budget was understated by as much as $5.0 million. However, military personnel
      savings were overstated by as much as $59.5 million. Manpower data indicates
      that there will be 469 civilian but no military personnel authorizations eliminated
      by FY 1999.

      Verification of Estimated Savings - Naval Station Charleston. The savings for
      Naval Station Charleston reported in the FY 1998/l 999 Biennial Budget were
      understated by as much as $208.1 million. Past operating budgets and official
      manpower documents indicate that the O&M savings estimate was understated by
      as much as $23.7 million. Official manpower data indicates that military
      personnel savings were understated by as much as $184.4 million. Manpower
      data indicates that when Naval Station Charleston closes in FY 1999, there will be
      572 civilian and 6,939 military personnel authorizations eliminated.

      Verification  of Estimated Savings - Naval Station Staten Island. The savings
      for Naval Station Staten Island reported in the FY 1998/l 999 Biennial Budget
      were understated by as much as $52.0 million. Past operating budgets and official
      manpower documents indicated that the O&M savings estimate reported in the FY
      1998/l 999 Biennial Budget was understated by as much as $13.1 million. Based
      on offkial manpower data, military personnel savings reported in the FY
      1998/1999 Biennial Budget were also understated by as much as $38.9 million.
      The official manpower data showed that when Naval Station Staten Island closed
      in FY 1994, there were 400 civilian and 646 military personnel authorizations
      eliminated.




                                              40
                    Appendix I. Naval Appropriation-Funded       Installation   Closures



Commander-in-Chief,           U.S. Pacific Fleet

     NAS Closures.    For the closures of NAS Alameda and NAS Miramar, the Navy
     reported BRAC savings of $147 million and $169.4 million, respectively. The
     savings were caused by eliminating civilian and military personnel authorizations.
     For NAS Alameda, the FY 199811999 Biennial Budget reported eliminating
     358 civilian and 537 military personnel authorizations. For NAS Miramar, the
     FY 1998/l 999 Biennial Budget reported eliminating 333 civilian and 894 military
     personnel authorizations. Our review disclosed that the reported savings in the
     FY 1998/1999 Biennial Btrdget were overstated by as much as $10.0 million for
     NAS Alameda and $38.9 million for NAS Miramar.

     Verification of Estimated Savings - NAS Alameda. We obtained the past
     operating budgets and offkial manpower documents for NAS Alameda from the
     U.S. Pacific Fleet budget office for FYs 1993 through 1999. Funding for NAS
     Alameda civilian and military personnel authorizations was reduced by
     $137.0 million. The reduced budgets were caused by eliminating 390 civilian and
     576 military personnel authorizations. The savings estimate of $147 million
     reported in the FY 1998/1999 Biennial Budget was overstated by as much as
     $10.0 million.

     Verification  of Estimated Savings - NAS Miramar. We also obtained the past
     operating budgets and official manpower documents for NAS Miramar from the
     U.S. Pacific Fleet budget offke for FYs 1993 through 1999. Funding for NAS
     Miramar civilian and military personnel authorizations was reduced by
     $130.5 million. The reduced budgets were caused by eliminating 506 civilian and
     444 military personnel authorizations. The savings estimate of $169.4 million
     reported in the FY 1998/1999 Biennial Budget was overstated by as much
     as $38.9 million.



Chief of Naval Education and Training

     NAS and Naval Training Center Closures.        For the realignment of NAS
     Memphis and the closure of Naval Training Center San Diego, the Navy reported
     BRAC savings of $183.6 million and $15 1.3 million, respectively. The savings
     were caused by reducing family housing requirements, eliminating civilian and
     military personnel authorizations, and reducing base operations costs. For NAS
     Memphis, the FY 1998/l 999 Biennial Budget reported eliminating 295 civilian
     and 5 14 military personnel authorizations. For Naval Training Center San Diego,
     the FY 1998/l 999 Biennial Budget reported eliminating 182 civilian and
     407 military personnel authorizations. The savings reported in the FY 1998/1999
     Biennial Budget were overstated for NAS Memphis by as much as $38.4 million
     and for the Naval Training Center San Diego by as much as $11.8 million.

     Verification of Estimated Savings - NAS Memphis. We calculated civilian
     personnel savings caused by eliminating 223 civilian personnel authorizations and
     obtained official documentation supporting operating budget reductions for the

                                         41
Appendix I. Naval Appropriation-Funded         Installation Closures



      Chief of Naval Education and Training O&M budget. The O&M savings reported
      in the FY 1998/1999 Biennial Budget were overstated by as much as
      $2 1.6 million. We calculated military personnel savings caused by eliminating
      407 military personnel authorizations and determined that savings in the FY
      1998/1999 Biennial Budget were overstated by as much as $SS.million.       We
      verified that plans for family housing deactivations did not occur, causing the FY
      1998/1999 Biennial Budget estimated savings to be overstated by $11.3 million.
      In total, the estimated savings in the FY 19980999 Biennial Budget for
      NAS Memphis were overstated by as much as $38.4 million.

      Verification of Estimated Savinbs - Naval Training Center San Diego. We
      calculated civilian personnel savings caused by eliminating 150 civilian personnel
      authorizations and obtained official documentation supporting operating budget
      reductions for the Chief of Naval Education and Training O&M budget. The
      O&M savings in the FY 1998/1999 Biennial Budget were understated by as much
      as $2.5 million. We calculated military personnel savings based on eliminating
      360 military personnel authorizations and determined that savings in the FY
      199811999 Biennial Budget were overstated by $15.7 million. The Navy reported
      $0.7 million in family housing operations improperly as savings reductions.
      Thus, the estimate for family housing operations savings in the FY 1998/l 999
      Biennial Budget was understated by as much as $1.4 million. In total, the
      estimate of savings in the FY 1998/1999 Biennial Budget for Naval Training
      Center San Diego was overstated by as much as $11.8 million.



Naval Reserve Force

      Naval Air Station Closure. For the closure of NAS Glenview, the Navy reported
      BRAC savings of $145.6 million. The estimate included $73.3 million caused
      by eliminating civilian personnel authorizations and reducing base operations;
      $7 1.3 million for eliminating military personnel authorizations; and $1 million
      for reducing family housing. The personnel savings were based on eliminating
      176 civilian and 375 military personnel authorizations.

      Verification of Estimated Savings. We obtained documentation of reductions in
      Naval Reserve Force operating budgets supporting the savings reported in the
      FY 1998/1999 Biennial Budget, but we also obtained cost data to compute actual
      O&M savings. Based on current Naval Reserve Force budget information, the
      Navy reduced costs by $29.9 million, including eliminating 177 civilian personnel
      authorizations. In addition, base operating costs for the Naval Reserve Force were
      reduced by $55.8 million with the closure of NAS Glenview. The O&M savings
      estimate in the FY 199811999 Biennial Budget was understated by as much as
      $12.4 million. We could not determine actual military personnel savings.




                                          42
                  Appendix I. Naval Appropriation-Funded       Installation   Closures



Space and Naval Warfare Systems Command

    Naval Command, Control, and Surveillance Center Consolidation.
    BRAC 1993 directed the consolidation of four East Coast In-Service Engineering
    organizations of the Naval Command, Control, and Surveillance Center. In
    January 1994, Naval Command, Control, and Surveillance Center In-Service
    Engineering East Coast Division Charleston was created for the consolidation.
    The Navy estimated BRAC savings of $59.9 million, including the reduction of
    general and administrative costs and the elimination of 23 civilian personnel
    authorizations.

    Verification of Estimated Savings. We could not determine the accuracy of the
    Navy savings estimates in the FY 1998/1999 Biennial Budget. The four
    engineering organizations were appropriation funded before consolidation, but
    they were funded on a reimbursable basis in January 1994. The Comptroller,
    Space and Naval Warfare Systems Command stated that it was not possible to
    compare operating costs before and after the consolidation because of differences
    in funding methods. We could not determine the accuracy of or support for the
    Navy savings estimates for the Naval Command, Control, and Surveillance Center
    consolidation.




                                       43
Appendix J.                 DISA Labor Savings
                                                                   Biennial                    Difference
                                                                    Budget      Cumulative       Increase/
                                                                   Reported        Labor      (Decrease) in
                                                                Labor Savings     Savings        Savings
   Cutrent Name of Data Processing Center      Closure Date       (millions)     (millions)     (millions)
Data Information Processing Center              October 1994     $26.4          $36.9          s 10.5
 Alexandria
Data Information Processing Center Arlington l August 1994                        1.9
Data Information Processing Center Arlington      March 1995        ;:;          43.0             3:::
 Annex
Data Information Processing Center Bangor          May 1997                       2.1              0.7
Data Information Processing Center Battle          June 1996       1:::          21.3              8.8
 Creek
Data Information Processing Center Camp            May 1995         3.4            6.2             2.8
 Lejeune
Data Information Processing Center Camp             July 1995       4.4           3.7             (0.7)
 Pendleton
Data Information Processing Center Charleston September 1994       13.7          21.8
Data Information Processing Center Cherry          June 1996        5.0           4.8             (Z)
 Point
Data Information Processing Center Cleveland’    August 1995       32.1
Data Information Processing Center Corpus
 Christi’
Data Information Processing Center Dayton           July 1994      15.3          33.3             18.0
Data Information Processing Center Defense
 Personnel Support Center Philadelphia            March 1995                     42.1            34.2
Data Information Processing Center El Toro         June 1994        ::;           3.7             0.9
Data Information Processing Center Enlisted
 Personnel Management Center New Orleans           April 1995
Data Information Processing Center Hampton    December I994        2;::          3:::              X::
 Roads
Data Information Processing Center Honolulu         July 1995                     5.6              1.3
Data Information Processing Center              January 1995       2;::
 Indianapolis’
Data Information Processing Center Kansas      February 1995       19.7
 City’
Data Information Processing Center Naval
 Computer and Telecommunications Station            July 995       14.2           8.5             (5.7)
 New Orleans
Data Information Processing Center Norfolk      January 997        19.4          21.4              2.0




                                                44
                                                                 Appendix J. DISA Labor Savings



                                                                      Biennial                     Difference
                                                                      Budget        Cumulative       Increase/
                                                                     Reported          Labor      (Decrease) in
                                                                   Labor Savings      Savings        Savings
    Current Name of Data Processing Center        Closure Date       (millions)      (millions)     (millions)
Data Information Processing Center Ogden        January 1995        $35.2           $37.7           $ 2.5
Data Information Processing Center Pearl         March 1996           2.6             6.5             3.9
  Harbor
Data Information Processing Center Pensacola November 1995            24.2           26.7              2.5
Data Information Processing Center           September 1994           28.2           32.1              3.9
  Philadelphia
Data Information Processing Center Puget           May 1995            7.5            15.4             7.9
  Sound
Data Information Processing Center San Diego November 1994            12.4            19.4
Data Information Processing Center San             May 1995           17.7            18.3             ;::
  Francisco
Data Information Processing Center Randolph        July 1995           9.7           74.2             64.5
  Air Force Base
Data Information Processing Center Richmond    October 1995          24.1            28.3
Data Information Processing Center San          August 1995           8.1             7.1             (E)
  Antonio
Data Information Processing Center              August 1995          51.1            76.8            25.7
  Washington
Facilities Systems Office Port Hueneme           March 1997            6.1             5.4            (0.7)
Naval Air Station Brunswick’
Naval Air Station Key West’
Naval Air Station Maypot?
Naval Air Station Oceana
Naval Air Station Whidbey Island               January 1997                           4.2
Naval Air Warfare Center China Lake
Naval Air Warfare Center Patuxent River’
                                                   May 1996
                                             September 1994
                                                                       i.8
                                                                      2:6
                                                                                      3.3             (E)
Naval Air Warfare Center Point Mugu’           October 1993           6.4
Naval Communications, Control., and Ocean
  Surveillance Command San Diego’            September 1993           2.0
Trident Refit Facility Kings Bay’                  May 1997           1.0
   Total - Additional Savings                                                                      S248.4


‘We were unable to obtain information needed to compute labor savings for these installations.
*Reported labor savings estimates with Data Information Processing Center Pensacola.
‘Naval Air Station did not report estimated labor savin s in the FY 199811999 Biennial Budget.
‘Reported labor savings estimates with Naval Air W2 are Center China Lake.




                                                   45
Appendix K. DISA Non-Labor Savings
                                                                                               Difference
                                                                      Biennial   Cumulative      Increase/
                                                                    Budget Non- Non-Labor      (Decrease)
                                                                   Labor Savings   Savings     in Savings
     Current Name of Data Processing Center       Closure Date       (millions)   (millions)    (millions)

Data Information Processing Center Alexandria .    October 1994       $ 1.6         $87.5        S 85.9
Data Information Processing Center Arlington        August 1994         1.8           0.5          (1.3)
Data Information Processing Center Arlington         March 1995       37.9            7.6         (30.3)
 Annex
Data Information Processing Center Bangor’            May 1997          0.5
Data Information Processing Center BattIe Creek       June 1996        11.2          11.5           0.3
Data Information Processing Center Camp               May 1995          3.6
 Lejeune’
Data Information Processing Center Camp                July 1995       3.7            0.4          (3.3)
 Pendleton
Data Information Processing Center Charleston    September 1994        4.3            5.1           0.8
Data Information Processing Center Cherry Point’      June 1996        2.3
Data Information Processing Center Cleveland’       August 1995       22.5
Data Information Processing Center Corpus
 Christ?
Data Information Processing Center Dayton’             July 1994       10.6
Data Information Processing Center Defense
 Personnel Support Center Philadelphia               March 1995        14.4          23.4           9.0
Data Information Processing Center Enlisted
 Personnel Management Center New Orleans              April 1995       2.1            0.7          (1.4)
Data Information Processing Center Hampton       December 1994         9.6           53.1         43.5
 Roads
Data Information Processing Center Honolulu            July 1995       2.5            5.9           3.4
Data Information Processing Center Indianapolis’   January 1995       47.6
Data Information Processing Center Kansas City’   February 1995       12.5
Data Information Processing Center Naval
 Computer and Telecommunications Station New           July 1995       9.6           17.6           8.0
 Orleans
Data Information Processing Center Norfolk’        January 1997        0.5
Data Information Processing Center Ogden           January 1995       14.9           14.0          (0.9)




                                               46
                                                        Appendix K. DISA Non-Labor Savings



                                                                                                      Difference
                                                                          Biennial   Cumulative         Increase/
                                                                        Budget Non- Non-Labor         (Decrease)
                                                                       Labor Savings   Savings        in Savings
      Current Name of Data Processing Center          Closure Date       (millions)   (millions)       (millions)

Data Information Processing Center Pearl Harbor        March    1996      SO.1          $ 2.7           S 2.6
Data Information Processing Center Pensacola        November    1995      32.0            7.7           (24.3)
Data Information Processing Center Puget Sound           May    1995                      1.8             1.8
Data Information Processing Center Randolph Air          July   1995       15.9
  Force Base’                         .
Data Information Processing Center Richmond           October   1995      20.4            16.8            (3.6)
Data Information Processing Center San Antonio         August   1995      34.2            66.7            32.5
Data Information Processing Center San Diego        November    1994       0.7             2.7             2.0
Data Information Processing Center San Francisco         May    1995      12.6            15.5             2.9
Data Information Processing Center Washington          August   1995      68.5           105.4            36.9
Data Information Processing Center El Toro               June   1994       0.2             2.3             2.0
Data Information Processing Center Philadelphia     September   1994      23.9            31.8             7.9
Facilities Systems Offtce Port Hueneme                  March   1997       I.8            35.1            33.3
Naval Air Station Brunswick’
Naval Air Station Key West-’
Naval Air Station Maypod
Naval Air Station Oceana’
Naval Air Station Whidbey Island’                     January   1997       0.5
Naval Air Warfare Center China Lake                      May    1996       0.9             5.4             4.5
Naval Air Warfare Center Patuxent River’            September   1994       7.5
Naval Air Warfare Center Point Mugu’                  October   1993       3.4
Naval Communications Control, and Ocean             September   1993       3.2
  Surveillance Command San Diego’
Trident Refit Facility Kings Bay’                         May 1997         2.2
    Total - Additional Savings                                                                         $212.2

‘We were unable to obtain information needed to compute non-labor savings for these installations.
‘Reported non-labor savings estimates with Data Information Processing Center Pensacola.
‘Naval Air Station did not report estimated non-labor savings in the FY 1998/l 999 Biennial Budget,
‘Reported non-labor savings estimates with Naval Air Warfare Center China Lake.




                                                   47
Appendix L. Relationship Between Defense
Management Review Decision 918 and the 1993
Commission Decision

   Establishment of DISA. The Deputy Secretary of Defense approved the
   establishment of DISA as the central manager of the Defense information
   infrastructure. Defense Manageqent Review Decision 918, “Defense
   Information Infrastructure,” September 15, 1992, sanctioned the establishment of
   DISA and outlined that the workload of 43 Military Department DPCs would be
   absorbed by DISA. The 43 Military Department DPCs included the costs of
   automated data processing functions for the Navy, the Air Force, and the Defense
   Logistics Agency. The Under Secretary of Defense (Comptroller) cited Defense
   Management Review Decision 918, Change 1, December 10, 1992, for the
   arbitrary reduction of $4.5 billion in the FY 1993 DOD budget. The reduction was
   entitled “Defense Information Infrastructure - Undistributed” and was considered
   a “top line” reduction in the DOD budget estimate. The Comptroller could not
   correlate the “top line” reduction to any specific Military Department or DPC
   closure.

   Defense Management Review Decision 918 and the 1993 Commission
   Decision. Defense Management Review Decision 918 was incorporated into
   BRAC 1993 and the 43 DPCs were scheduled for closure and realignment to
   the 16 megacenters. Rapid consolidation of these 43 Navy, Air Force, and
   Defense Logistics Agency DPCs was necessary to accommodate a significant
   portion of the Defense Management Review Decision 9 18 budget savings of
   $4.5 billion. DISA “capitalized” (assumed legal and operational control) the
   43 DPCs, estimated the labor and non-labor savings that would result from
   their closure, and included those estimates in the FY 1998/l 999 Biennial Budget.
   The capitalization of the 43 DPCs occurred when the Service-level automated
   data processing functions were assigned to DISA. Because the DPCs had
   previously been either Navy, Air Force, or Defense agency organizations, DISA
   experienced difficulty in obtaining official source documentation supporting labor
   and non-labor costs that would result in future savings when the DPCs closed.




                                       48
Appendix M. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Industrial Affairs and Installations)
      Director, Base Transition Office
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Office of the Assistant Chief of Staff for Installation Management
   Chief, Base Realignment and Closure Office
Commander, U.S. Army Materiel Command
   Commander, Industrial Operations Command
   Commander, Communications-Electronics Command
   Commander, Tank-Automotive and Armaments Command
Auditor General, Department of the Army

Department of the Navy
Commandant of the Marine Corps
Assistant Secretary of the Navy (Financial Management and Comptroller)
  Director, Office of Budget and Fiscal Management
Deputy Chief of Naval Operations (Logistics)
  Head, Base Closure Implementation Branch
Chief of Naval Education and Training
Commander, Bureau of Naval Personnel
Commander, Naval Air Systems Command
Commander, Naval Facilities Engineering Command
Commander, Naval Reserve Force
Commander, Naval Sea Systems Command
Commander, Space and Naval Warfare Systems Command
Commander, Naval Supply Systems Command
Auditor General, Department of the Navy




                                           49
Appendix M. Report Distribution



Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Assistant Secretary of the Air Force for Installations
   Chief, Base Transition Division
Deputy Assistant Secretary of the Air Force (Budget)
   Chief, Operations and Personnel Directorate
Commander, Air Combat Command
Commander, Air Force Materiel Command
Commander, Air Force Reserve Cornmawd
Auditor General, Department of the Air Force

Unified Commands
Commander-in-Chief, U.S. Atlantic Fleet
Commander-in-Chief, U.S. Pacific Fleet

Other Defense Agencies
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Director, Defense Information Systems Agency Western Hemisphere
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
National Security Division, Congressional Budget Office
National Security and International Affairs Division, General Accounting Office
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:
   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
   House Committee on National Security



                                           50
Part III - Management Comments
Under Secretary of Defense for Acquisition and
Technology Comments

                    DFFICE     OF THE UNDER SECRETARY                OF DEFENSE




                                                      April   10,   1998
                                                 .


    MEMORANDUM          FOR THE INS-OR           GENERAL

    SUBm:       DoD 1G Audit Report on costs and Savings for 1993 Defense Base Realignments
                and Closures (BRAC) (Project No. 7CG-5033)

                This responds to your memorandum of January 23,1998, questing our comments
    on the subject report.

                 I appaciate the work your staff has done in reviewing this issue. I agree with the
    report’s finding that BRAC 93 costs arc lower than originally c&mated. I alsu agn~! with the
    finding that sxvings may be greater than originally estimated.

                Fiily, I concur with the report’s rccommcndptionsto improve our accounting and
    budgeting procuhcs fur mcording tbc costs and savings from BRAC. Spcciftily. my office
    will work with tht Military Departments and the oftice of the Comptrolkr to improve the
    Department’s pc&rmancc in:

                I. Reconciling and -ligating     excess obligxtions when fmal costs ate known.
                2. Retaining dccumcntation supporthg cost avoidances sod cancelkd military
                   construction projects.
                3. Reconciling the costs of actual workloadhrcascs at gaining activities used to
                   offset budget savings estimates.
                4. Requiring the Bxecutive Summary and Budget Justification, Biennial Budget
                   B&mates, be updated for sxvings and replacing prior year Mimatcd xavings with
                   actual savings, to the maximum extent possible. I expect the Comptroller to
                   revise DODRegulation 7OOO.WR,“Financial Managc~nt Regulation,” July
                   1996. to ~mptisb this.

                we apptiatc this opportunityto commcntonthtdraftofthisaudit.


                                             &L&&.~

                                                 JohoB.Goodman
                                                 DeputyulukrSecrctaIy
                                                 (Industrial Affairs & Instalktions)




                                                     52
Under Secretary of Defense (Comptroller)
Comments

                      UNDER SECRETARY OF DEFENSE
                           1100DEFENSE ?ENlAGON
                          WASHINGTON,    DC   20301-1100




    MEMOIblUDUM POR OITICE OF THE INSPECI’ORGm             DEPARTMENT
                      OF DEFENSE




                                                                        ,




                                        53
Under Secretary of Defense (Comptroller)                Comments




                                        OUSD(C)
                                              CO-            ON




               TIC                           Todevdoprunifammdamdstmtapplic.dmof
        estimadcommulthgfhmDcfemcbuem&gnumbuuicl-,theDoDIG-
        tll8ttbCUSD(C)rrcmphuizetothe-8tldD&MCAgmciertOZ




                        b. lkddidy   review outuading ob@atkm andpmotptlydmbligatcexcus
        dlligMiOIUWhfiMl~UChrown.




                                                   54
                            Under Secretary of Defense (Comptroller)                   Comments




       WB:              SavIngafor1993Defeameltta@mmtsandClamra.    TluDoDIG
faund that the $5.9 biion qorted uvinga from BIUC 1993 mre umhtucd by rpproximrtely
51.7biim. -hi8undatcrtaaentindiclrerrDcsdfabeaaert
methodologies. ‘he DODIG 8tUCdthatthe Biamial Budget Uhlg8 uthatu for the Navy, the
AitFace,urdDdaue~~ti~s~Ag~@IsA)mreundartrtedbeuuuvrriour
typc8ofuvingsd8tawuc hpppciately acludcd when tlu utim8tu wae famulued, a were
not sukequently upda!ed. Specifically, the DODIG found tlurz




            b. ‘Ihe Navy did not include the uving8 from all mihy   amsttMh   r&ction8 in
opaatiq budgets.

             c. Savinga-for11           Navyitwabtiaasdidnotagn?c.

               d. 7lmxNavalindumzially-fundedMallatia1~didaopnwiuuvingsestima~
with actual c0sElavoided at the time of closure.
Under Secretary of Defense (Comptroller)   Comments




                                      56
Under Secretary of Defense (Comptroller)   Comments




           57
Audit Team Members

The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, produced this report.

Paul J. Granetto
Wayne K. Million
Nicholas E. Como
Arthur M. Hainer
Gopal K. Jain
Samuel J. Scumaci
Sheryl L. Jansen
